OFFICE OF INSPECTOR GENERAL

SEMIANNUAL REPORT
 TO THE CONGRESS




 October 1, 2005 - March 31, 2006
                                Inspector General

                 HOTLINE
   The Office of Inspector General (OIG) maintains a Hotline to make it easy to report allegations of fraud,
   waste, abuse, mismanagement or misconduct in the programs and operations of the United States Agency
   for International Development (USAID), the Inter-American Foundation (IAF), the African Development
   Foundation (ADF), and the Millennium Challenge Corporation (MCC). USAID, IAF, ADF and MCC
   employees, contractors, and program participants or the general public may report allegations directly to
   OIG. The Inspector General Act of 1978 and other laws protect persons making hotline complaints. Submit
   complaints by e-mail, telephone, or mail to:

   Phone                 1-202-712-1023
                         1-800-230-6539

   E-mail                ig.hotline@usaid.gov

   Mail                  USAID OIG HOTLINE
                         P.O. Box 657
                         Washington, DC 20044-0657


   Individuals who contact the Hotline are not required to identify themselves. However, OIG encourages
   those who report allegations to identify themselves so they can be contacted if additional questions arise
   as OIG evaluates their allegations. Pursuant to the Inspector General Act of 1978, the Inspector General
   will not disclose the identity of an individual who provides information unless that individual consents
   or unless the Inspector General determines that such disclosure is unavoidable during the course of an
   investigation. You may request confidentiality when using the telephone or mail. E-mail complaints
   cannot be kept confidential because electronic e-mail systems are not secure.

   During the current reporting period, OIG received 3,826 hotline contacts. Of these, 53 were referred for
   possible case openings, 205 were referred to USAID, seven were referred to other federal agencies, four
   were referred to other law enforcement agencies, and five were found to be unsubstantiated. The remain-
   ing contacts were solicitations for money advertisements, or requests for general information or other
   non-OIG-related matters.


U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
MESSAGE FROM THE
INSPECTOR GENERAL
This Semiannual Report to the            • Savings and recoveries exceeding      progress has been made in these
Congress (SARC) highlights the             $22 million were realized as          areas, OIG believes that continued
work of the United States Agency           a result of OIG investigations        attention and oversight by USAID
for International Development,             involving USAID programs and          senior management are required.
Ofﬁce of Inspector General                 operations.
(USAID/OIG) during the October                                                   OIG will continue to respond
2005 to March 2006 timeframe.            • A worldwide audit of the              to USAID’s priority programs
Of all the highlights reported in          President’s Emergency Plan for        and operations. I look forward
the SARC, I draw your attention            AIDS Relief showed that USAID         to keeping you informed and
to three:                                  is making signiﬁcant contributions    updated in future SARCs.
                                           to the overall relief plan.
 • In areas of crisis, such as Iraq
   and Afghanistan, OIG’s work          In addition to the highlights
   conﬁrmed that USAID is making        above, OIG remained focused on
   progress and achieving success       USAID’s ﬁve major management
   under very difﬁcult circumstances.   challenges. While signiﬁcant




                                                                                /s/


                                                                      Donald A. Gambatesa
                                                                      Inspector General
Acronyms and Abbreviations
ADF        African Development Foundation

ADP        Agribusiness Development Program

CIP        Commodity Import Program

COP        Chief of Party

DCA        Development Credit Authority

DCAA       Defense Contract Audit Agency

EEOC       Equal Employment Opportunity Commission

EOP        Equal Opportunity Programs

FISMA      Federal Information Security Management Act of 2002

FSN        Foreign Service National

HIV/AIDS   Human Immunodeﬁciency Virus/Acquired Immunodeﬁciency Syndrome

IAF        Inter-American Foundation

IG Act     Inspector General Act of 1978

MCC        Millennium Challenge Corporation

OIG        Ofﬁce of Inspector General

OMB        Ofﬁce of Management and Budget

PEPFAR     President’s Emergency Plan for AIDS Relief

PFAP       Private Farmers Assistance Program

PSIP       Procurement System Improvement Program

SAI        Supreme Audit Institutions

SARC       Semiannual Report to the Congress

UN         United Nations

USAID      United States Agency for International Development

USDA       United States Department of Agriculture

WARP       West African Regional Program
Table of Contents
   Reporting Requirements ................................................................................................................................ ii
   Executive Summary .......................................................................................................................................... 1
   Overview        ................................................................................................................................................... 2
           Mission .................................................................................................................................................. 2
           Organization ........................................................................................................................................ 2
           Organizational Chart .......................................................................................................................... 3
   Highlights      ................................................................................................................................................... 4
   USAID
           Major Management Challenges ....................................................................................................... 9
                  Financial Management .......................................................................................................... 9
                  Information Resources Management ................................................................................ 9
                  Managing for Results ...........................................................................................................10
                  Acquisition and Assistance Management ........................................................................11
                  Human Capital Management .............................................................................................11
           Other Management Challenges..................................................................................................... 12
                  Iraq .......................................................................................................................................... 12
                  Afghanistan ........................................................................................................................... 12
                  West Bank and Gaza .......................................................................................................... 13
                  Tsunami Recovery Program ..............................................................................................13
                  HIV/AIDS ............................................................................................................................... 14
           Expanding Accountability .................................................................................................................15
                  Expanding Supreme Audit Institutions’ Capabilities .....................................................15
                  Financial Management Training ..........................................................................................15
                  Prevention and Fraud Awareness .....................................................................................15
                  Fraud Awareness Training ...................................................................................................16
                  Federal-wide Quality Control Review Program ......................................................... 17
                  Oversight of Audit Work Conducted on OIG’s Behalf ............................................. 17
           Introduction to USAID Bureaus and Independent Ofﬁces ......................................................18
                  Bureau for Africa ................................................................................................................. 19
                  Bureau for Asia and the Near East ................................................................................. 21
                  Bureau for Europe and Eurasia ........................................................................................ 24
                  Bureau for Latin America and the Caribbean............................................................... 25
                  Bureau for Management .................................................................................................... 27
                  Ofﬁce of Equal Opportunity Programs ......................................................................... 28
   African Development Foundation
                  OIG Strategy ........................................................................................................................ 30
                  Management Challenges .....................................................................................................30
                  OIG Oversight Activities....................................................................................................31
   Inter-American Foundation
                  OIG Strategy ........................................................................................................................ 32
                  Management Challenges .....................................................................................................32
                  OIG Oversight Activities....................................................................................................33
   Appendices ................................................................................................................................................ 35


                                                                                                          SEMIANNUAL REPORT TO THE CONGRESS                                i
                          Reporting Requirements
The Inspector General Act of 1978, as amended, requires each Inspector General to submit semiannual reports to the
Congress summarizing the activities of the office during the preceding six-month period. The required reporting areas, as
prescribed under Section 5(a) of the Act, include the following:

            Reporting Requirement                            USAID                  ADF                    IAF

     Significant Problems, Abuses and Deficiencies          Pages 9 - 14      Nothing to Report     Nothing to Report


     Recommendations for Corrective Actions                Pages 19 - 28      Nothing to Report     Nothing to Report


     Summary of Each Significant Report                    Pages 19 - 28            Page 31               Page 33


                                                            Appendix A            Appendix A            Appendix A
     List of Audit Reports Issued
                                                           Pages 36 - 57           Page 58               Page 58

     Summary of Each Audit Report over Six Months
     Old for Which No Management Decision Has           Nothing to Report     Nothing to Report     Nothing to Report
     Been Made

     Significant Prior Recommendations on Which             Appendix C            Appendix C            Appendix C
     Corrective Action Has Not Been Completed              Pages 60 - 61           Page 62               Page 62

     Statistical Table of Reports with Questioned and       Appendix D
                                                                              Nothing to Report     Nothing to Report
     Unsupported Costs                                       Page 63

     Statistical Table of Reports with
                                                            Appendix E
     Recommendations That Funds Be Put to Better                              Nothing to Report     Nothing to Report
                                                             Page 64
     Use

     Summary of Instances in Which Information or           Appendix F
                                                                              Nothing to Report     Nothing to Report
     Assistance was Refused                                  Page 65

     Decisions and Reasons for Significant Revised          Appendix F
                                                                              Nothing to Report     Nothing to Report
     Management Decisions                                    Page 65

     Significant Management Decisions with Which            Appendix F
                                                                              Nothing to Report     Nothing to Report
     the Inspector General Disagrees                         Page 65

     Remediation Plan Information (Required under
                                                            Appendix F
     the Federal Financial Management Improvement                             Nothing to Report     Nothing to Report
                                                             Page 65
     Act of 1996)
     Matters Referred to Prosecutive Authorities
                                                            Appendix G
     and the Prosecutions and Convictions Which                               Nothing to Report     Nothing to Report
                                                             Page 66
     Resulted

ii        SEMIANNUAL REPORT TO THE CONGRESS
EXECUTIVE SUMMARY
This Semiannual Report to Congress        related to major tsunami-assistance       Considerable resources were dedi-
(SARC) is issued in compliance with       activities, and tsunami-related audit     cated to proactive efforts intended
the requirements of the Inspector         work and fraud awareness training         to expand accountability. This effort
General Act of 1978, as amended.          were conducted. Following the             included work with and oversight of
It provides detailed information          worldwide audit of the President’s        USAID recipient countries’ Supreme
about the United States Agency for        Emergency Plan for AIDS Relief issued     Audit Institutions, providing ﬁnancial
International Development, Ofﬁce          during the last reporting period, OIG     management training to over 300
of Inspector General’s (USAID/OIG)        launched a second worldwide audit to      individuals, and conducting fraud
work and results for the period           determine how USAID’s Emergency           awareness training for over 1,040
October 1, 2005 through March 31,         Plan prevention and care activities are   individuals.
2006.                                     progressing.
                                                                                    Detailed information regarding OIG’s
During the reporting period, OIG          Management challenges were                signiﬁcant audits, investigations, and
issued 234 audit reports with             addressed in areas of ﬁnancial            results are provided in this report
monetary recommendations valued           management, information resources         along with the required report infor-
at over $41 million; 40 investigations    management, acquisition and assis-        mation for USAID, ADF, and IAF.
were closed and nearly $23 million        tance, human capital management,
in recoveries and savings were real-      and managing for results. USAID
ized as a result of its investigative     has continued to show progress in
work. Other outcomes of OIG’s             meeting its management challenges
work include one indictment, two          and received an unqualiﬁed opinion
convictions, three debarments, 20         on its ﬁscal year 2005 ﬁnancial
personnel actions, and four systemic      statements. OIG provided recom-
changes to the operation of a USAID-      mendations for improving ﬁnancial
funded nonproﬁt foundation: (1) a         reporting internal controls, future
bank account was changed; (2) an          information technology initiatives, and
audit committee was created; (3) the      information security. OIG continues
trustee signature cards were updated;     to work toward its strategic objective
and (4) two signatures are now            of contributing to the improvement
required on all checks.                   of USAID’s processes for awarding
                                          and administering its acquisition and
High risk programs, such as Iraq          assistance instruments.
reconstruction, Afghanistan recon-
struction, West Bank and Gaza,            Audit and investigative work
tsunami, HIV/AIDS, and USAID              continued in support of programs
management challenges continued           within each of USAID’s Bureaus and
to be priorities for OIG. In areas of     the African Development Foundation
crisis, such as Iraq and Afghanistan,     (ADF) and Inter-American Foundation
OIG’s work conﬁrmed that USAID is         (IAF). OIG oversaw the work of
making progress and achieving success     non-federal audit ﬁrms in the ﬁnancial
under very difﬁcult circumstances.        statements for ﬁscal year 2005, and
OIG worked closely with USAID             both ADF and IAF received unquali-
missions to arrange for ﬁnancial audits   ﬁed opinions.



                                                                             SEMIANNUAL REPORT TO THE CONGRESS               1
OVERVIEW
The Ofﬁce of Inspector General        also requires all Inspectors General to   Africa. These regional ofﬁces maintain
(OIG) is responsible for providing    keep management and the Congress          close working relationships with the
audit and investigative services to   fully and currently informed about        USAID missions in their regions, and
the U.S. Agency for International     problems and deﬁciencies relating to      their presence in the ﬁeld enables
Development (USAID), the African      the administration of programs and        auditors and investigators to carry
Development Foundation (ADF),         operations, as well as about actions      out their responsibilities efﬁciently.
the Inter-American Foundation         taken to correct those deﬁciencies
(IAF) and the Millennium Challenge    and problems.
Corporation (MCC).
                                      ORGANIZATION
MISSION                               OIG is organized into four opera-
Established under the Inspector       tional units: Audit, Investigations,
General Act of 1978 (IG Act), as      Management, and MCC. There are
amended, OIG is responsible for (1)   seven overseas ﬁeld ofﬁces, each
promoting economy, efﬁciency, and     led by a Regional Inspector General,
effectiveness in the administration   located in Cairo, Egypt; San Salvador,
of programs; and (2) preventing and   El Salvador; Frankfurt, Germany;
detecting fraud and abuse in world-   Baghdad, Iraq; Manila, Philippines;
wide program operations. The IG Act   Dakar, Senegal; and Pretoria, South




2      SEMIANNUAL REPORT TO THE CONGRESS
               USAID
   OFFICE OF INSPECTOR GENERAL
                                               Inspector General
                                                                                            Counsel to
                                                 Deputy Inspector General                  the Inspector
               Chief of Staff
                                                                                              General




  Assistant Inspector             Assistant Inspector            Assistant Inspector           Assistant Inspector
General -- Investigations          General -- MCC              General -- Management            General -- Audit




     Deputy AIG/I           Deputy AIG/MCC              Deputy AIG/M          Deputy AIG/A           Deputy AIG/A



     Headquarters
                                                          Human
      Liaison &
                                                          Capital                                  Headquarters
     Coordination              Financial                                       Financial
                                                          Division                                  Liaison &
       Division              Audits Division                                 Audits Division       Coordination
                                                                                                     Division

       AFR/ANE                                            Financial
                                                         Resources            Information
        Division              Performance                                    Technology &
                                                          Division                                  Performance
                             Audits Division                                 Special Audits        Audits Division
                                                                                Division

       LAC/E&E                                           Information
        Division                                         Technology
                                                           Division




                                          Regional Inspector General Offices




                       San
    Cairo                            Frankfurt          Baghdad          Manila           Dakar              Pretoria
                    Salvador
    Egypt                            Germany              Iraq         Philippines       Senegal           South Africa
                   El Salvador



                                                                            SEMIANNUAL REPORT TO THE CONGRESS             3
HIGHLIGHTS
The following sections describe the                       The investigative results reﬂect           HIGHLIGHTS OF
most signiﬁcant results of OIG’s work                     investigative activity that resulted in    SIGNIFICANT AUDITS
concluded in the past six-month                           criminal action, civil action, personnel
period. During this semiannual period,                    action, and ﬁnancial recoveries and        Audit activities include ﬁnancial and
OIG issued reports on its activities                      savings.                                   performance audits at USAID, the
in Iraq and Afghanistan, the Tsunami                                                                 African Development Foundation, and
Reconstruction Program, and on                                                                       the Inter-American Foundation. The
USAID’s Alternative Development                                                                      following table is a statistical summary
Program.                                                                                             of OIG audit activities during this
                                                                                                     reporting period.



                                                                             Number of
                         Type of Report                                       Reports        Monetary Recommendations ($)*
       Financial Audits
          USAID Programs and Operations                                               2                         11,496

          Foundations’ Programs and Operations                                        2                           0

          U.S.-Based Contractors                                                     34                       4,833,272

          U.S.-Based Grantees                                                        14                       1,266,636

                Quality Control Reviews                                               3                           0

          Foreign-Based Organizations                                                144                     19,487,490

                Quality Control Reviews                                               8                           0

          Enterprise Funds                                                            0                           0

       Performance Audits
          USAID Economy and Efﬁciency                                                23                      16,107,252

          Foundations’ Economy and Efﬁciency                                          0                           0

       Other                                                                          4                        131,050

                                 TOTAL                                               234                     41,837,196




*   Monetary Recommendations include questioned costs and funds put to better use.




4         SEMIANNUAL REPORT TO THE CONGRESS
Audit of USAID/Iraq’s Basic                                                       OIG determined that, as of September
                                                              OIG recommended that the Mission
Education Activities                                                              30, 2005, only $600,000 of the $10
                                                              develop a plan to ensure that appro-
                                                                                  million appropriated for ﬁscal year
                                                              priate computer equipment is available,
OIG conducted this audit to deter-                                                2004 had been used to provide
                                                              or discontinue funding the program.
mine if USAID/Iraq’s basic education                                              shelter materials and basic necessi-
activities had progressed toward       A management decision was reached,
                                                                                  ties for displaced persons in Kabul.
intended outputs.                      and ﬁnal action was taken.
                                                                                  Additionally, as of September 30, 2005,
OIG found that of the 82 intended      (Audit Report No. E-267-06-001-P)          although Congress had been notiﬁed
outputs included in the implementa-                                               that the funds would be transferred
tion plan, work had been started       Audit of Funds Earmarked by                to the Department of State’s Bureau
and progress was being made on 33      Congress to Provide Assistance for of Population, Refugees, and Migration,
outputs. For the remaining 49 outputs, Displaced Persons in Afghanistan none of the $5 million appropriated
27 were to be cancelled due to lack of                                            for ﬁscal year 2005 had been trans-
funding, and 22 other activities were  In response   to a Congressional  request, ferred or spent by the Mission.2
planned to be initiated and completed OIG conducted an audit of USAID/            OIG made three recommendations to
before the end of the contract in      Afghanistan’s use of $15 million in
                                                                                  ensure that the remaining balance of
June 2006. Because the full contract   ﬁscal years 2004 and 2005 emergency
                                                                                  approximately $14.4 million in unspent
amount was unlikely to be funded,      supplemental funds, which Congress
                                                                                  funds is used for its intended purpose.
the primary implementing partner       intended to assist displaced Afghans.
submitted a revised implementation                                                Management decisions were reached
                                       The objective of this audit was to
plan to more accurately reﬂect what                                               on all three recommendations.
                                       determine if USAID/Afghanistan used
could be achieved given the revised    the ﬁscal year 2004 and ﬁscal year         (Audit Report No. 9-306-06-004-P)
funding levels.                        2005 earmarked funds for the intended
OIG also determined that the Ministry purpose of providing displaced Afghans
of Education did not have appropriate with emergency      shelter and basic
computer equipment to operate the      necessities.1


education management information
system being developed by the imple-
menting partner.



                                                                          LEFT: Photograph of a
                                                                          computer literacy training
                                                                          class at a regional teacher
                                                                          training center in south
                                                                          central Iraq.


                                                                          RIGHT: Photograph of
                                                                          a “winterized” (broken
                                                                          windows were covered with
                                                                          plastic sheeting) temporary
                                                                          settlement in an abandoned
                                                                          building in Kabul, Afghanistan.



1.   A Congressional earmark places legal requirements on how appropriated funds are spent. Although a Congressional directive is not a legal restriction, it does stipulate Congress’
     intent as to how the funds should be spent. While the ﬁscal year 2005 $5 million appropriation was “earmarked,” the ﬁscal year 2004 $10 million appropriation included a
     directive but not an earmark.

2.   Subsequently, the Mission—in coordination with Department of State’s Bureau of Population, Refugees, and Migration—modiﬁed its plans for the use of the $5 million and
     planned to direct $1.5 million of these funds to USAID’s Ofﬁce of Foreign Disaster Assistance.

                                                                                                                   SEMIANNUAL REPORT TO THE CONGRESS                                 5
                                                   LEFT: Photograph of a river
                                                   showing that all debris was
                                                   removed as a result of a
                                                   bridge that was destroyed
                                                   by the tsunami. Remnants of
                                                   the bridge can be seen on
                                                   each bank just left of the new
                                                   temporary bridge in Aceh
                                                   Providence, Indonesia.
                                                   RIGHT: Photograph of the
                                                   central community gathering
                                                   location in Achinamiza, Peru.



Audit of USAID/Indonesia’s                 OIG made two recommendations to            OIG found that USAID/Peru’s ADP
Banda Aceh-Lamno Road                      improve USAID/Indonesia’s oversight        activities were on schedule to achieve
                                           over its Banda Aceh–Lamno road             planned sustainable results for two
Reconstruction Activities Under
                                           reconstruction activities.                 of the four main results indicators.
Its Tsunami Recovery and                                                              These indicators included the number
Reconstruction Program                     Management decisions were reached          of hectares of illicit coca voluntarily
                                           on both recommendations.                   eradicated and the number of
OIG conducted this audit to deter-
mine whether USAID/Indonesia’s             (Audit Report No. 5-497-06-003-P)          program clients whose land remains
Banda Aceh Lamno road reconstruc-                                                     coca free. However, the performance
tion activities were on schedule to be     Audit of USAID/Peru’s Alternative          target for the number of hectares of
completed as planned and within cost       Development Program                        illicit coca voluntarily eradicated was
estimates. Although some road recon-                                                  met in 2004 only because the original
struction activities were on schedule      USAID and the Government of                target was substantially reduced. In
or near completion, OIG could not          Peru’s counter-narcotics organization,     addition, OIG determined that ADP
determine whether all activities were      DEVIDA, signed a bilateral agree-          activities could be managed more
on schedule to be completed within         ment to implement the Alternative          efﬁciently.
estimated costs because USAID/             Development Program (ADP).
                                           DEVIDA was responsible for coordi-         OIG made 16 recommendations to
Indonesia did not have an approved                                                    USAID/Peru. The recommendations
design or implementation plan.             nating, planning, promoting, monitoring,
                                           and evaluating the “national strategy      included developing an action plan
The contractor had implemented             to ﬁght against narcotics” as well as      along with the Department of State
a number of activities, such as road       for coordinating inputs from several       to obtain needed support from the
maintenance, road rehabilitation and       government ministries involved with        Government of Peru, developing
removal of bridge debris. As a result,     law enforcement and development.           a better strategy for targeting
the 80-kilometer road between              These inputs include, among other          communities with high concentrations
Banda Aceh and Lamno was open to           things, ofﬁce supplies and equipment,      of coca ﬁelds and verifying that all
trafﬁc. However, without an approved       utilities, and transportation.             coca grown has been eradicated, and
implementation plan, USAID/Indonesia                                                  seeking agreements from communities
could not demonstrate how it               OIG conducted this audit to                to eradicate all of their coca at one
intended to complete all road recon-       determine: (1) if USAID/Peru’s ADP         time. In addition, OIG recommended
struction activities within the contract   activities were on schedule to achieve     that USAID/Peru make a management
period.                                    planned sustainable results; and (2)       decision with regard to the ineligible
                                           if the activities were managed in an       questioned costs of over $225,000.
                                           efﬁcient manner.




6       SEMIANNUAL REPORT TO THE CONGRESS
Management decisions were reached          The following summarizes signiﬁcant        subcontractor. One contract involved
on 15 recommendations, and ﬁnal            cases during the current reporting         the implementation of a program to
action was taken on one recommen-          period.                                    encourage ﬁnancial institutions to
dation.                                                                               increase the ﬂow of credit to micro
                                           Investigation Results in $1.2              and small businesses in developing
(Audit Report No. 1-527-06-001-P)          Million Settlement                         countries. The other two contracts
                                                                                      involved implementation of economic
HIGHLIGHTS OF                              As a result of an OIG investigation,
                                                                                      assistance programs in post-war
SIGNIFICANT                                a U.S.-based ﬁrm agreed to pay $1.2
                                                                                      Bosnia-Herzegovina.
                                           million to settle potential claims under
INVESTIGATIONS
                                           the False Claims Act that it over-
                                                                                      The ﬁrm created the subsidiary to
Investigative priorities include           charged USAID on three contracts
                                                                                      specialize in banking and business
program integrity (fraud involving         for overseas economic development
                                                                                      training in developing countries.
contracts, grants and cooperative          services. OIG investigation was based
                                                                                      The subsidiary performed these
agreements) and employee integrity         on a referral from the USAID Ofﬁce
                                                                                      services as a subcontractor to the
(serious misconduct by direct-hire         of Acquisition and Assistance and was
                                                                                      parent ﬁrm under each of the three
employees). OIG investigations may         conducted with assistance from the
                                                                                      contracts. The training included the
result in criminal, civil or administra-   United States Attorney’s Ofﬁce.
                                                                                      provision for training materials that
tive action. The chart below is a
                                                                                      were to be billed to USAID at the
summary of the investigative workload      The investigation focused on the ﬁrm’s
                                                                                      ﬁrm’s cost of obtaining the materials.
and results during this reporting          performance under three USAID
                                                                                      Based on the OIG investigation, the
period.                                    contracts in which it used the services
                                                                                      Government contended that the
                                           of a wholly owned subsidiary as a
                                                                                      ﬁrm charged USAID for the training
                                                                                      materials without adequate cost
              Workload Indicator                                                      justiﬁcation, resulting in an overpay-
                                                                                      ment of $438,200. In addition, the
  Cases Opened                             46                                         Government contended that in one of
  Cases Closed                             40                                         the three contracts, the ﬁrm charged
                      Results                                                         USAID its agreed proﬁt rate, plus
                                                                                      the proﬁt charged by its subsidiary,
  Recoveries/Savings                $22,717,365                                       resulting in an overpayment of
  Resignations/Terminations                20                                         $79,532, making the total overpay-
  Personnel Suspensions                    0                                          ments $517,732.

  Suspensions/Debarments                   3                                          Investigation Leads to Recovery
  Indictments                              1                                          of $1.3 Million
  Convictions                              2                                          OIG previously reported that a long-
  Systemic Changes                         4                                          term investigation resulted in the
                                                                                      ﬁling of a federal civil fraud lawsuit
                                                                                      against two U.S.-based companies
                                                                                      and an executive ofﬁcer. The
                                                                                      companies, which were participant
                                                                                      suppliers in the USAID Commodity
                                                                                      Import Program (CIP), brokered
                                                                                      shipments of pulp and resin from U.S.
                                                                                      manufacturers to foreign importers.
                                                                                      According to the civil complaint, the

                                                                               SEMIANNUAL REPORT TO THE CONGRESS           7
defendants violated the False Claims
Act by knowingly submitting more
than 100 false and inﬂated claims for
reimbursement to USAID, overstating
the charges actually incurred for
freight and insurance. The complaint
also alleged that in some cases the
defendants erased the actual charge
that appeared on freight bills and
typed in a different, inﬂated amount.
Further, the complaint alleged that
as a result of the defendants’ actions,
federal funds budgeted for economic
development projects abroad instead
went to reimburse the defendants for
freight and insurance charges they had
not, in fact, incurred.

During this reporting period, the
defendants entered into a settlement
agreement with the U.S. Attorney’s
Ofﬁce and paid the government $1.3
million without admitting any wrong-
doing or liability. All but three percent
of the payment will be returned to
USAID.




8       SEMIANNUAL REPORT TO THE CONGRESS
MAJOR MANAGEMENT CHALLENGES
USAID implements America’s foreign                          Financial Management                                      obligations; and (3) preparing a
economic and humanitarian assistance                                                                                  complete Management Discussion and
                                                            In November 2005, OIG issued an
programs in accordance with foreign                                                                                   Analysis. As a result, these issues were
                                                            unqualiﬁed opinion on USAID’s
policy guidance provided by the                                                                                       not identiﬁed as reportable internal
                                                            ﬁscal year 2005 and 2004 ﬁnancial
Secretary of State. USAID manages a                                                                                   control conditions.
                                                            statements. A programming error
budget of approximately $9.2 billion
                                                            identiﬁed during the review of the
and advances U.S. foreign policy objec-                                                                               Information Resources
                                                            ﬁscal year 2005 ﬁnancial statements
tives by supporting:
                                                            affected the comparability of the
                                                                                                                      Management
     • Economic growth, trade, and                          ﬁnancial statements with those of the                     Improving Information Resources
       agricultural development.                            preceding period, requiring a restate-
                                                                                                                      Management Processes
                                                            ment of the 2004 ﬁnancial statements.
     • Improvements in global health.
                                                            USAID documented the effects of                           The Clinger-Cohen Act of 1996
     • Conﬂict prevention, democracy,                       this error in Note 22 of the ﬁnancial                     requires heads of executive agencies
       and developmental relief activities.                 statements.3                                              to, among other things, implement
                                                                                                                      (1) a process to select, manage, and
In pursuit of its mission, USAID faces                      With respect to internal controls over
                                                                                                                      evaluate investments; and (2) a means
a number of Major Management                                ﬁnancial reporting, OIG identiﬁed one
                                                                                                                      for senior managers to monitor
Challenges—which parallel the                               material internal control weakness
                                                                                                                      progress in terms of costs, system
President’s Management Agenda. This                         and three reportable conditions
                                                                                                                      capabilities, timeliness, and quality.
section updates USAID’s continuing                          for ﬁscal year 2005. The material
efforts to address those challenges                         internal control weakness is related to                   Prior to November 2005, USAID
and OIG’s efforts to assist in over-                        USAID’s Accruals Reporting System                         reported a material weakness
coming them.                                                and its effect on accounting and                          in its ability to meet the above
                                                            reporting for accrued expenditures                        Clinger-Cohen Act requirements. In
These Major Management Challenges                           and accounts payable. Reportable                          November 2005, USAID re-character-
are:                                                        conditions address USAID’s need to                        ized the weakness as a reportable
     • Financial Management                                 (1) perform reconciliations of its Fund                   condition. Speciﬁcally, USAID did not:
                                                            Balance with the U.S. Treasury; (2)
     • Information Resources                                                                                             • Update its information resources
                                                            perform regular reconciliations of its
       Management                                                                                                          management strategic plan
                                                            intragovernmental transactions; and
                                                            (3) improve recognition and reporting                        • Fully develop an Agency
     • Managing for Results
                                                            over its accounts receivable. OIG                              Enterprise Architecture
     • Acquisition & Assistance                             made three recommendations to
       Management                                           improve USAID’s internal controls                            • Prepare, complete, and/or codify
                                                            over ﬁnancial reporting and prepara-                           some policy and procedures for
     • Human Capital Management                                                                                            its IT processes
                                                            tion of its annual ﬁnancial statements.

                                                            During 2005, USAID made progress                             • Fully establish its Program
                                                            in (1) mapping strategic objectives                            Management Ofﬁce
                                                            to USAID performance goals; (2)
                                                            deobligating unneeded unliquidated

3.    “Audit of USAID’s Financial Statements for Fiscal Years 2005 and 2004,” November 14, 2005 (Audit Report No. 0-000-06-001-C).



                                                                                                             SEMIANNUAL REPORT TO THE CONGRESS                9
OIG made several recommendations                              • Operating network intrusion                           health; and democracy, conﬂict preven-
to help USAID improve its future IT                             sensors to detect unauthor-                           tion and humanitarian assistance.
initiatives. For example, OIG recom-                            ized attempts to access USAID                         Federal laws, such as the Government
mended that USAID:                                              networks                                              Performance and Results Act of
                                                                                                                      1993, require that federal agencies
     • Develop and implement a plan to                        • Detecting and responding to
                                                                                                                      develop performance measurement
       address the enterprise architec-                         security incidents
                                                                                                                      and reporting systems that establish
       ture needs of the Agency
                                                            However, USAID could do more to                           strategic and annual plans, set annual
     • Develop policies and procedures                      strengthen its information security                       targets, track progress, and measure
       for each phase and activity of the                   program. For example, the Agency                          results. In addition, government-wide
       Agency’s project life cycle                          could strengthen its processes for                        initiatives, such as the President’s
                                                            obtaining and retaining signed access                     Management Agenda, require that
     • Prepare and implement a plan                                                                                   agencies link their performance
                                                            authorization documents for users
       to establish a mature Program                                                                                  results to budget and human capital
                                                            of its general support system. In
       Management Ofﬁce                                                                                               requirements.
                                                            addition, it could more promptly
USAID management agreed to take                             disable user accounts for employees
                                                                                                                      A signiﬁcant element of USAID’s
corrective actions to implement                             and contractors who no longer need
                                                                                                                      performance management system
all of the recommendations. OIG                             access to the Agency’s computer
                                                                                                                      is the Annual Reports prepared by
will continue to monitor USAID’s                            network.
                                                                                                                      each operating unit. These reports
progress in implementing the recom-                                                                                   provide information on the results
                                                            In addition, USAID could improve
mendations.                                                                                                           achieved, which are consolidated in
                                                            contingency planning and certiﬁca-
                                                            tion and accreditation processes,                         USAID’s annual Performance and
Information Security                                        controls over access to the Phoenix                       Accountability Report.
                                                            ﬁnancial management system, and
The Federal Information Security                                                                                      For information reported in the
                                                            controls over the physical security
Management Act of 2002 (FISMA)                                                                                        Management’s Discussion and
                                                            of its computer network. USAID
requires agencies to develop, docu-                                                                                   Analysis section of USAID’s ﬁscal
                                                            is also taking action to address its
ment, and implement an agency-wide                                                                                    year 2005 consolidated ﬁnancial
                                                            non-compliance with provisions on
information security program to                                                                                       statements, OIG reported no material
                                                            the security classiﬁcation of system
protect its information and informa-                                                                                  inconsistencies with the ﬁnancial
                                                            managers at overseas critical threat
tion systems, including those provided                                                                                statements or nonconformance
                                                            locations.
or managed by another agency,                                                                                         with Ofﬁce of Management and
contractor, or other source. USAID                          OIG is continuing to monitor the                          Budget (OMB) guidance.4 This was
met FISMA’s computer security                               Agency’s progress in addressing the                       a notable improvement from the
requirements, for example by:                               above issues.                                             prior year, when OIG reported that
                                                                                                                      certain information included in the
     • Providing computer awareness
       training
                                                            Managing for Results                                      Management’s Discussion and Analysis
                                                                                                                      section of USAID’s ﬁscal year 2004
                                                            USAID has programs in approximately
     • Conducting regular network scans                                                                               consolidated ﬁnancial statements did
                                                            100 countries promoting a wide range
       to identify vulnerabilities                                                                                    not contain a clear picture of USAID’s
                                                            of objectives related to economic
                                                                                                                      planned and actual performance for
                                                            growth, agriculture, and trade; global




4.    “Audit of USAID’s Financial Statements for Fiscal Years 2005 and 2004,” November 14, 2005 (Audit Report No. 0-000-06-001-C).



10           SEMIANNUAL REPORT TO THE CONGRESS
that year.5 Moreover, OIG reported                         agreements. Consequently, much                            skills and “institutional memory.”
that the primary performance infor-                        of USAID’s development results are                        In response to the President’s
mation included was based on results                       achieved through intermediaries such                      Management Agenda’s initiative on
achieved in ﬁscal year 2003.                               as contractors and grant recipients,                      human capital and to address its own
                                                           and through cooperative agreements.                       human capital challenges, USAID has
Each quarter, OMB scores each
                                                                                                                     undertaken a major effort to improve
agency’s status and progress towards                       OMB’s December 31, 2005, scorecard                        and restructure its human capital
implementing the President’s                               reported that USAID is making                             management.
Management Agenda. OMB developed                           some progress in implementing the
a scoring system based upon the                            President’s Management Agenda for                         For example, in August 2004, USAID
colors green, yellow and red. A                            competitive sourcing. Nevertheless,                       issued its ﬁrst comprehensive Human
“green” rating indicates success and a                     the scorecard rated the status of                         Capital Strategic Plan, which covered
“yellow” rating signiﬁes mixed results,                    USAID’s competitive sourcing as “red”                     ﬁscal years 2004 to 2008. The
while a “red” rating is unsatisfactory.                    or unsatisfactory—no change since                         Ofﬁce of Management and Budget’s
For the quarter ending December                            the last report in September 2005.                        December 31, 2005 scorecard
31, 2005, OMB rated USAID’s                                                                                          reported USAID is making progress
current status in the budget/perfor-                       OIG developed its multi-year audit                        in implementing the President’s
mance integration initiative as                            plans to document the Ofﬁce of                            Management Agenda for human
“green”—improving from yellow                              Acquisition and Assistance’s progress                     capital management. However, the
the previous quarter—and USAID’s                           in achieving the necessary steps                          scorecard rated the current status of
progress towards meeting its goals in                      required to continue improvement.                         human capital as “yellow” for mixed
this area as also “green.” Still, although                 OIG is conducting an audit of the                         results—no change since the last
USAID is making satisfactory progress                      Ofﬁce of Acquisition and Assistance’s                     report in September 2005. USAID
towards meeting its budget/perfor-                         procurement evaluation program and                        needs to continue its efforts to imple-
mance integration goals, more work                         an audit of selected scopes of work                       ment its workforce planning to close
remains to be done.                                        for task orders issued under indeﬁnite                    skill gaps through recruitment, reten-
                                                           quantity contracts.                                       tion, training, succession planning, and
OIG continues to monitor USAID’s
                                                                                                                     other strategies. OIG plans to audit
progress in improving its performance
management system.
                                                           Human Capital                                             USAID’s implementation of its human
                                                           Management                                                capital strategy during this ﬁscal year.
Acquisition and Assistance                                 The President’s Management Agenda
Management                                                 identiﬁes the strategic management of
                                                           human capital as one of ﬁve govern-
Because of the complexities associ-
                                                           ment-wide areas that need improve-
ated with acquisition and assistance—
                                                           ment. A decade of downsizing, insufﬁ-
numerous laws, regulations, policies,
                                                           cient funding, staff reductions and lack
procedures, deﬁnitions, etc.—USAID
                                                           of hiring, and reductions in training
faces challenges in its efforts to
                                                           created human capital gaps at USAID.
acquire supplies and services. USAID
                                                           These gaps include a workforce that
uses several different methods to
                                                           is rapidly aging, has a void in the
acquire supplies and services, including
                                                           mid-management ranks, and is losing
contracts, grants, and cooperative




5.   “Independent Auditor’s Report on USAID’s Financial Statements for Fiscal Years 2004 and 2003,” November 15, 2004 (Audit Report No. 0-000-05-001-C).



                                                                                                            SEMIANNUAL REPORT TO THE CONGRESS              11
OTHER MANAGEMENT CHALLENGES
Iraq                                        During the reporting period, OIG           $600,000 of the appropriated
                                            provided four fraud awareness              $15 million had been used for its
The USAID/Iraq reconstruction effort
                                            seminars to 128 USAID personnel. In        intended purpose. OIG made
has more than $5 billion in program
                                            addition, OIG initiated ﬁve investiga-     three recommendations to ensure
resources. OIG Baghdad ofﬁce has
                                            tions and closed one investigation.        that the remaining $14.4 million is
seven auditors and one investigator
                                            Seven investigations were in progress      used as intended. USAID reached
conducting audits and investigations
                                            at the end of the period.                  management decisions on all
of reconstruction and relief activities.
                                                                                       recommendations (see page 5).
USAID/Iraq carries out programs in
                                            Afghanistan
four major areas: (1) restoring essential                                            • The $153.4 million Rebuilding
infrastructure; (2) supporting health       In May 2005 USAID/Afghanistan              Agricultural Markets Program
and education; (3) expanding economic       published its strategic plan for 2005-     (RAMP) audit determined that
opportunity; and (4) improving              2010. This document established            ﬁve of six activities achieved
efﬁciency and accountability in govern-     new strategic objectives to address        their planned outputs. For the
ment.                                       the fragility, insecurity, and poverty     sixth activity, USAID/Afghanistan
                                            that exist in Afghanistan. Despite         rehabilitated about 70 percent
During the period, OIG audited              the many challenges of working in          of the planned 555 kilometers
USAID/Iraq’s basic education activi-        Afghanistan—particularly extreme           of farm-to-market roads. The
ties and determined that there was          security perils—USAID continues            planned output was not achieved
progress toward 33 of the 82 outputs.       to implement a sizable program, and        for a number of reasons, including
For the remaining 49 outputs, 27            OIG continues to conduct perfor-           poor security and poor subcon-
were to be cancelled due to lack            mance and ﬁnancial audits.                 tractor performance. Additionally,
of funding, and 22 planned activities
                                                                                       USAID/Afghanistan did not prop-
were to be completed before the             During this period, OIG conducted
                                                                                       erly administer its RAMP contract.
end of the contract (see page 5). In        three performance audits of USAID
                                                                                       OIG made three recommenda-
addition, OIG conducted an audit of         activities in Afghanistan.
                                                                                       tions (see page 22).
USAID/Iraq’s nonexpendable property
                                             • The audit of funds provided
and determined that nonexpendable
                                               to assist displaced persons
property valued at $23.5 million in the
                                               in Afghanistan found that, as
property database was not managed in
                                               of September 30, 2005, only
accordance with USAID guidance (see
page 21).

OIG also uses the Defense Contract
Audit Agency to conduct concurrent                       Photograph of
ﬁnancial audits of USAID contractors                     a settlement of
                                                         displaced Afghans,
and grantees implementing programs                       who were intended
in Iraq. During this period, OIG issued                  beneﬁciaries of some
                                                         of the $15 million
six ﬁnancial audit reports covering                      appropriated to assist
$79.3 million in incurred costs. These                   displaced Afghans in
audits questioned approximately $1.3                     and around Kabul,
                                                         Afghanistan.
million in costs associated with, among
other things, salaries and wages, travel,
and vehicles.


12      SEMIANNUAL REPORT TO THE CONGRESS
 • The cashiering operations audit           repair and rehabilitation projects     countries in Southeast Asia and parts
   found that USAID/Afghanistan              and $9 million to pay for utilities.   of Africa. More than 273,000 people
   managed its cashiering operations         The auditors also identiﬁed about      were reported missing or dead, and
   in accordance with established            $12,000 in questioned costs.           about 1 million others were displaced.
   regulations, policies and proce-
                                          • OIG continues to contract with          On May 11, 2005, President Bush
   dures. OIG did not make any
                                            independent public accounting           signed the “Emergency Supplemental
   recommendations (see page 21).
                                            ﬁrms to conduct audits and              Appropriations Act for Defense, the
OIG also conducted three concurrent         agreed-upon procedures of               Global War on Terror, and Tsunami
ﬁnancial audits of a USAID contractor       contractors, grantees, sub-             Relief, 2005.” This Act provided $907
implementing a $665 million program         contractors, and sub-grantees.          million for tsunami recovery and
in Afghanistan—the largest USAID            Among other things, these audits        reconstruction assistance. Under the
program in the country. These audits        help to ensure the validity of          Act, USAID received $656 million to
reported internal control weaknesses        costs claimed and compliance            provide direct assistance to tsunami-
and questioned costs totaling about         with Executive Order 13224              affected countries. The Act also
$348,000.                                   on the blocking of assistance to        provided up to $1 million for OIG to
                                            terrorist organizations. During         review USAID’s efforts.
During the reporting period, OIG
                                            the reporting period, OIG issued
opened two investigations and closed                                                During this reporting period, OIG
                                            six ﬁnal reports on these activities
one. Three investigations were in                                                   conducted an audit of USAID/
                                            that identiﬁed questioned costs
progress at the end of the period.                                                  Indonesia’s $12 million Banda Aceh–
                                            of approximately $107,000 of the
                                                                                    Lamno road reconstruction activities.
                                            $12 million audited.
West Bank and Gaza                                                                  These activities included outputs such
                                         OIG’s oversight activities during this     as removal of bridge debris, reha-
OIG’s oversight activities in West
                                         reporting period did not identify any      bilitation of usable road sections, and
Bank and Gaza included audits of
                                         instances where terrorist organiza-        construction of new road sections.
USAID’s cash-transfer program to the
                                         tions received USAID funds. However,       Although some planned outputs were
Palestinian Authority and continuing
                                         one grantee did not include the            on schedule or near completion, OIG
audits of USAID’s contractors and
                                         required clause in a sub-grant. OIG        could not determine whether all
grantees.
                                         recommended that the recipient             planned outputs would be completed
 • OIG contracted with an                comply with Executive Order 13224.         by the project’s completion date and
   independent public accounting                                                    within overall estimated costs because
                                         During the current reporting period,
   ﬁrm to conduct concurrent                                                        two critical project documents were
                                         OIG conducted a site visit of the
   audits of cash-transfers to the                                                  not in place—a completed road design
                                         USAID Mission in Tel Aviv to address
   Palestinian Authority as the funds                                               and an approved implementation plan.
                                         West Bank and Gaza-related issues.
   are disbursed. OIG issued two                                                    OIG made two recommendations to
                                         As a result, OIG anticipates future
   reports covering concurrent                                                      improve project implementation (see
                                         efforts in the areas of fraud awareness
   audits of $20 million disbursed                                                  page 6).
                                         presentations and site visits.
   under the ﬁrst cash transfer. The
                                                                                    In addition, OIG is working closely
   agreement provided $11 million
   for repair and rehabilitation of
                                         Tsunami Recovery Program                   with USAID missions to arrange for
                                                                                    ﬁnancial audits of contractors and
   municiple infrastructure and up       On December 26, 2004, a devastating
                                                                                    grantees implementing major tsunami-
   to $9 million for utility services.   earthquake off the west coast of
                                                                                    assistance activities.
   The auditors found that as of June    Northern Sumatra, Indonesia, spawned
   30, 2005, the Ministry of Finance     a massive tsunami that struck several
   disbursed about $8 million for




                                                                             SEMIANNUAL REPORT TO THE CONGRESS          13
During the reporting period, OIG                             In 2005, OIG launched a worldwide
also conducted seven fraud awareness                         audit to review USAID’s participation
training sessions and site visits in Sri                     in the President’s Emergency Plan for
Lanka, Indonesia, and Thailand. During                       AIDS Relief (PEPFAR) and how it is
these visits, OIG discussed fraud-                           progressing with PEPFAR activities.7
related issues with senior USAID                             In 2006, OIG launched a second
Mission personnel and key contractor                         worldwide audit to determine how
personnel.                                                   USAID’s Emergency Plan prevention
                                                             and care activities are progressing.
HIV/AIDS                                                     The audit showed that USAID is
                                                             making signiﬁcant contributions to the
The HIV/AIDS pandemic is a social
                                                             overall relief plan. OIG also plans to
and economic crisis that is threatening
                                                             perform a worldwide audit of USAID’s
decades of development progress.
                                                             procurement and distribution of
Recognizing that the HIV/AIDS
                                                             commodities for PEPFAR.
pandemic is an unprecedented crisis,
the President’s Emergency Plan for
AIDS Relief (Emergency Plan) was
announced in January 2003. The
Emergency Plan focuses signiﬁcant
new resources in 15 of the most
afﬂicted countries in the world.6 In
these nations, the Emergency Plan
aims to support treatment for 2
million people living with HIV/AIDS,
prevent 7 million new HIV infections,
and support care for 10 million people
infected and affected by HIV/AIDS,
including orphans and vulnerable
children.

These 15 focus countries contain
approximately half of the world’s 40
million HIV-positive people and have
at least 8 million children orphaned or
made vulnerable by HIV/AIDS. Along
with the Departments of State and of
Health and Human Services, USAID is
one of the key agencies implementing
the Emergency Plan.




6.   Botswana, Cote d’Ivoire, Ethiopia, Kenya, Mozambique, Namibia, Nigeria, Rwanda, South Africa,Tanzania, Uganda, and Zambia in Africa; Guyana in South America; Haiti in the
     Caribbean; and Vietnam in Asia.

7.   The summary report for this worldwide audit, issued during the previous semiannual reporting period, was the “Audit of USAID’s Implementation of the President’s Emergency
     Plan for AIDS Relief,” issued September 30, 2005 (Audit Report No. 9-000-05-009-P).



14          SEMIANNUAL REPORT TO THE CONGRESS
EXPANDING ACCOUNTABILITY
Corruption and lack of accountability      ance with cost principles, OIG has         and/or civil prosecution are publicized
are major impediments to successful        been training overseas USAID staff,        on the Agency’s website and other
development and threaten to negate         contractors, grantees and others. This     publications calling attention to
years of economic growth, especially       training provides a general overview       prosecutorial action taken against
in areas of the world beset by political   of both U.S. Government cost prin-         individuals or organizations whose
instability and violence. OIG audits       ciples and audit requirements. It also     illegal activities have targeted USAID
and investigations are one method of       provides examples of concepts such         programs. It is OIG’s expectation that
safeguarding USAID funds; however,         as reasonableness, allocability, and       the publication of these prosecutorial
OIG actively pursues additional            allowable and non-allowable costs.         actions serves as a deterrent to fraud,
methods to promote accountability                                                     waste and abuse.
and transparency. For example, OIG         During the reporting period, OIG
                                           provided ﬁnancial management               In addition, OIG has developed
works with Supreme Audit Institutions
                                           training in ﬁve countries to over          several publications and promotional
to expand their capability, provides
                                           300 individuals representing USAID         materials. The newest publication,
fraud awareness and ﬁnancial manage-
                                           missions, partners and recipients;         “What an Investigation Means to
ment training, works with other
                                           accounting ﬁrms; Supreme Audit             You,” outlines the types of activities
members of the federal community to
                                           Institutions.                              that OIG investigates, the purpose
improve standards and identify best
                                                                                      of its investigations, the investigative
practices, and maintains oversight of
                                           Prevention and Fraud                       process, and the employee’s role in
audit work conducted on OIG’s behalf.
                                                                                      that process. Another publication,
                                           Awareness
                                                                                      “What to Report,” provides speciﬁc
Expanding Supreme Audit                    OIG investigative priorities are           guidelines for making complaints to
Institutions’ Capabilities                 twofold: (1) to preserve and protect       OIG Hotline, while OIG’s “Fraud
OIG continues to work closely with         program and employee integrity             Indicators” publication encourages
selected Supreme Audit Institutions        within USAID, ADF, and IAF; and (2)        its readers to explore various tech-
(SAIs). SAIs are the recipient coun-       to prevent fraud, waste, and abuse         niques to identify indicators of fraud.
tries’ principal government audit          within USAID, ADF, and IAF programs        Furthermore, OIG Hotline posters,
agencies and are often the only orga-      and operations. During the reporting       ﬂyers, and cards have been distributed
nizations that have a legal mandate to     period, OIG has emphasized preven-         to OIG’s overseas ofﬁces. In an effort
audit the accounts and operations of       tive strategies as part of its oversight   to expand OIG’s outreach efforts,
their governments. OIG establishes         responsibilities. Using proactive strat-   these materials are produced in
standards and procedures for SAI           egies has proven to be very effective      English, Spanish, French and Arabic and
audits of USAID funds and oversees         in combating fraud, waste, and abuse.      are also available on OIG Website.
the SAI’s work. During the reporting
                                           OIG has employed a number of
period, OIG issued 11 reports to
                                           proactive strategies. For example,
local government agencies that were
                                           fraud awareness training given to
performed for the USAID OIG by
                                           employees, contractors, grantees
SAIs.
                                           and others alerts them to fraudulent
                                           practices and schemes and advises
Financial Management
                                           them on how to report fraud if it is
Training                                   encountered. When requested, the
USAID’s contracts and grants deﬁne         training is tailored to speciﬁc groups,
the types of costs that are legitimate     such as contracting ofﬁcers or cogni-
charges to support USAID programs.         zant technical ofﬁcers. Furthermore,
To increase awareness and compli-          investigations resulting in criminal

                                                                               SEMIANNUAL REPORT TO THE CONGRESS           15
FRAUD AWARENESS TRAINING
     Month   Location                 Sessions          Attendees     Type of Attendee

     OCT     Washington, DC               1                   20      USAID Personnel

     NOV     Santo Domingo,               13                 146      USAID/Contractor/Grantee Personnel
             Domican Republic

     DEC     Accra, Ghana                 1                  54       USAID Personnel
             Kiev, Ukraine                1                  74       USAID Personnel
             Addis Ababa, Ethiopia        2                  143      USAID/Contractor/Grantee Personnel
                                                                      CPA Firm Personnel

     JAN     Colombo, Sri Lanka           2                   50      USAID/Contractor/Grantee Personnel
             Jakarta, Indonesia           2                   62      USAID/Contractor/Grantee Personnel
             Banda Aceh, Indonesia        1                   17      USAID/Contractor/Grantee Personnel
             Washington, DC               1                   21      USAID Personnel
             Bangkok, Thailand            2                   35      USAID,/Contractor/Grantee Personnel

     FEB     Washington, DC               2                  38       USAID Personnel
             Yerevan, Armenia             3                  115      USAID/Contractor Personnel

     MAR     Moscow, Russia               4                   85      USAID/State Department/
                                                                      Contractor/Grantee Personnel
             Washington, DC               2                  52       USAID Personnel
             Baghdad, Iraq                4                  128      USAID Personnel

                      Total               41                1,040




                                               Photograph of an
                                               OIG Special Agent
                                               during one of the
                                               41 fraud awareness
                                               training sessions
                                               conducted to alert
                                               participants to
                                               fraudulent practices
                                               and schemes and
                                               how to report it.




16    SEMIANNUAL REPORT TO THE CONGRESS
OIG identiﬁed approximately $13.7 million
    in questioned costs in 37 audit reports
                   covering $632.1 million.


                         Federal-wide Quality                        Oversight of Audit Work
                         Control Review Program                      Conducted on OIG’s Behalf
                         USAID/OIG participates in the               OIG oversees audit work conducted
                         Federal Government’s Single Audit           by federal and non-federal auditors.
                         Quality Control Working Group.              The Defense Contract Audit Agency
                         OIG performed three quality                 (DCAA) conducts audits, reviews,
                         control reviews of audits of grantees       and pre-award surveys of U.S.-based
                         predominately funded by USAID. The          contractors on USAID’s behalf. OIG
                         Working Group will report on the            then reviews DCAA’s reports and
                         review results of all federal agencies in   transmits them to USAID manage-
                         ﬁscal year 2006. OIG also works with        ment. In addition, OIG provides
                         USAID program managers to update            oversight of non-federal auditors who
                         compliance guidance for the Foreign         perform audits of U.S.-based nonproﬁt
                         Food Aid Donation programs. This            and foreign organizations that receive
                         guidance was submitted to the Ofﬁce         USAID funds and conducts quality
                         of Management and Budget (OMB)              control reviews to determine if the
                         as an addition to the OMB Circular          audits comply with U.S. Government
                         A-133 Compliance Supplement and             requirements. During this period,
                         provides practical guidance on Foreign      OIG issued 37 audit reports which
                         Food Aid programs to independent            identiﬁed about $13.7 million in ques-
                         public accountants conducting audits        tioned costs, covering about $632.1
                         of USAID’s domestic grantee partners.       million audited. OIG also issued
                                                                     11 quality control review reports
                                                                     covering $144 million.




                                                             SEMIANNUAL REPORT TO THE CONGRESS          17
INTRODUCTION OF USAID BUREAUS
AND INDEPENDENT OFFICES

                                                         USAID is organized into ten major bureaus
                                                                       and six independent ofﬁces.


The Ofﬁce of the Inspector General’s   The pillar bureaus provide leadership,   Independent Ofﬁces
audit or investigative results are     technical expertise, and management
                                                                                 • Ofﬁce of the Executive Secretariat
presented under the appropriate        worldwide in primary focus areas.
USAID unit or bureau.                                                            • Ofﬁce of Equal Opportunity
                                       The program activity or technical
                                                                                   Programs
USAID is organized into ten major      expertise supports USAID’s regional
bureaus and six independent ofﬁces.    bureaus, ﬁeld missions and other          • Ofﬁce of the General Counsel
The bureaus are divided by region,     operational units.
program focus, and support function.                                             • Global Development Alliance
USAID’s bureaus are:                   Support Bureaus                             Secretariat

                                        • Policy and Program Coordination        • Ofﬁce of Small and Disadvantaged
Regional Bureaus                                                                   Business Utilization and Minority
                                        • Management                               Resource Center
 • Africa
                                        • Legislative and Public Affairs         • Ofﬁce of Security
 • Asia and the Near East
                                       Centralized programs and services        The independent ofﬁces, headed by
 • Europe and Eurasia
                                       that serve the entire USAID organiza-    directors who are appointed by the
 • Latin America and the Caribbean     tion are the focus of the support        Administrator, provide specialized
                                       bureaus. The tasks of these three        functions for USAID.
The regional bureaus formulate,
                                       support bureaus encompass policy
approve, direct, and implement
                                       formulation, coordination, budget
economic assistance programs with
                                       formulation, resource allocation,
the ﬁeld mission staff under their
                                       management services (including
responsibility.
                                       information technology, personnel and
                                       ﬁnancial management), and public and
Program/Pillar Bureaus                 Congressional liaison.
 • Democracy, Conﬂict and
   Humanitarian Assistance

 • Economic Growth, Agriculture
   and Trade

 • Global Health




18     SEMIANNUAL REPORT TO THE CONGRESS
BUREAU FOR AFRICA
Audit of USAID/Uganda’s
Development Credit Authority
The Development Credit Authority
(DCA) is a broad ﬁnancing authority                       Photograph of
that allows USAID to use credit                           ﬁsh-processing
                                                          activities at a
to pursue any of the development                          company that is a
purposes speciﬁed under the Foreign                       DCA guarantee
                                                          loan recipient in
Assistance Act of 1961, as amended.                       Kampala, Uganda.
USAID’s DCA guarantees encourage
commercial banks to ﬁnance targeted
development projects that otherwise
would most likely not be funded,
encourage local private-sector lending,
and stimulate the development of local    Management decisions were reached         transition strategy was extended to
capital markets.                          on four of the recommendations, and       a second phase to cover ﬁscal years
                                          USAID/Uganda agreed to de-obligate        2004-2006, continuing with the same
This audit was conducted as part          over $105,000, which they will repro-     focus.
of a worldwide audit of USAID’s           gram. This reprogramming action
Development Credit Authority to           could result in over $3.7 million in      The objectives of this audit were to
determine whether USAID/Uganda            additional loan guarantees to qualiﬁed    determine whether (1) USAID/Sierra
managed its DCA guarantees to             borrowers.                                Leone managed the transition strategy
ensure that selected results were                                                   from Phase 1 to Phase 2 efﬁciently and
achieved.                                 (Audit Report No. 4-617-06-004-P)         (2) USAID/Sierra Leone’s transition
                                                                                    strategy achieved its intended results.
As a result of the audit, OIG deter-      Audit of USAID/Sierra Leone’s
mined that USAID/Uganda managed           Management of Its Transition              OIG determined that, despite some
its DCA guarantees to ensure that                                                   delays in completing procurement
                                          Strategy
selected results were achieved                                                      instruments and a monitoring plan,
but identiﬁed several areas where         The United States provided over           USAID/Sierra Leone efﬁciently and
additional oversight would result in      $300 million annually in support          effectively managed the extension of
improved accountability and moni-         of the UN Peacekeeping Forces in          its transition strategy from Phase 1 to
toring.                                   Sierra Leone following a decade of        Phase 2. The Mission followed USAID
                                          civil war. To address the continuing      guidance, which included assessing
OIG made ﬁve recommendations to                                                     the Stage 1 Strategy, developing a
                                          challenges facing Sierra Leone, USAID
assist USAID/Uganda in improving its                                                new strategy that incorporated the
                                          implemented a transitional strategy
oversight of its Development Credit                                                 results of assessments, and performing
                                          for ﬁscal years 2001-2003 that had
Authority.                                                                          required administrative procedures.
                                          the overarching goal of national peace,
                                          security and stability. In 2003, the      In addition, the audit found that
                                                                                    USAID/Sierra Leone’s transition
                                                                                    strategy achieved its intended results.




                                                                              SEMIANNUAL REPORT TO THE CONGRESS          19
However, the audit did identify weak-       participation and the timely release       OIG made ﬁve recommendations
nesses regarding documentation              of agricultural data at regional food      to improve USAID/South Africa’s
of monitoring activities and data           security conferences, and developing       programs for award closeouts and
accuracy.                                   a strategy to back up meteorological       contractor performance evaluations,
                                            data needed to avoid a food security       including completing closeout proce-
OIG made two recommendations to             crisis.                                    dures or documenting an appropriate
assist USAID/Sierra Leone in its moni-                                                 exception for 56 awards with unliqui-
toring and reporting activities.            Management decisions have been
                                                                                       dated balances of about $1 million and
                                            reached on all recommendations.
                                                                                       deobligating the balances that were no
Management decisions were reached                                                      longer needed.
                                            (Audit Report No. 7-624-06-002-P)
on both recommendations.
                                            Audit of the Effectiveness of              Final action was taken on all ﬁve
(Audit Report No. 7-636-06-001-P)                                                      recommendations, and the Mission
                                            USAID/South Africa’s Award
                                                                                       deobligated about $1 million in unliq-
Audit of USAID/WARP’s                       Closeout and Contractor                    uidated balances.
Management of Environmental                 Performance Evaluation
and Food Security Monitoring                Programs                                   (Audit Report No. 4-674-06-005-P)
Programs
                                            OIG conducted this audit to deter-         Investigation Leads to Conviction
The USAID/West African Regional             mine whether USAID/South Africa            of Foreign Service National
                                            implemented award closeout and
Program (WARP) headquartered in                                                        Employee
Accra, Ghana deals with West African        contractor performance evaluation
development challenges.                     programs as required by USAID poli-        OIG previously reported the indict-
                                            cies and procedures. OIG determined        ment and arrest of a former Foreign
The objectives of the audit were to         that, although it had programs for         Service National (FSN) employee on
determine whether (1) USAID/WARP            closing out awards and evaluating          charges of theft and embezzlement in
monitored and reported results of           contractor performance, the Mission        a joint investigation conducted with
its environmental and food security         did not complete all award closeouts       the Department of State. The FSN
programs in accordance with appli-          and contractor performance evalu-          had worked in the Cashier’s Ofﬁce of
cable requirements and (2) USAID/           ations in the time frames required.        a USAID Mission and then departed
WARP’s environmental and food               Speciﬁcally, it did not complete           for a position in the U.S. Embassy’s
security programs were on schedule          closeouts for 56 awards with a total       Cashier’s Ofﬁce. The joint investigation
to achieve planned results.                 of about $1 million in unliquidated        revealed that the FSN embezzled over
                                            balances that were 36 months past          $200,000.
OIG determined that USAID/WARP
                                            their expiration date. Similarly, during
followed applicable requirements
                                            ﬁscal years 2002, 2003 and 2004, the       During the reporting period, the FSN
in reporting its program activities
                                            Mission did not complete 92 percent        pled guilty to two counts of embezzle-
and that its environmental and food
                                            of required ﬁnal contractor evalu-         ment in U.S. District Court. The
security programs were on schedule
                                            ations and 88 percent of required          former employee admitted to stealing
to achieve planned results.
                                            interim evaluations. In addition, for      more than $100,000 from the USAID
However, OIG made four recom-               the same three-year period, the            Mission and approximately $100,000
mendations to improve program               Mission did not document the use           from the U.S. Embassy. The individual
monitoring and to work with partner         of past performance information in         will be sentenced later this year.
organizations to improve food secu-         source selection for 20 percent of its
rity. These recommendations focused         direct contracts.
on strengthening the Mission’s moni-
toring activities, encouraging high-level



20      SEMIANNUAL REPORT TO THE CONGRESS
BUREAU FOR ASIA AND THE NEAR EAST
Audit of USAID/Iraq’s
Nonexpendable Property
USAID/Iraq was established in July
2003 to manage USAID’s recon-
struction and humanitarian relief                                                                                                                Photograph of
assistance. Due to a stafﬁng shortage,                                                                                                           vehicles stored
the Mission hired a contractor to                                                                                                                uncovered on
                                                                                                                                                 the USAID/Iraq
procure and manage nonexpendable                                                                                                                 compound in
property.8 After the contract expired,                                                                                                           Baghdad, Iraq.
the Mission took over responsibility
for the procurement, maintenance,
management and accountability of
nonexpendable property.

The objective of this audit was to
determine if USAID/Iraq managed its                      OIG made seven recommendations to                         • Followed appropriate procedures
nonexpendable property in accor-                         improve USAID/Iraq’s management of                          in establishing its imprest fund
dance with USAID guidance.                               its nonexpendable property.
                                                                                                                   • Provided training to its cashiers
OIG found that USAID/Iraq’s prop-                        Management decisions have been
                                                                                                                   • Implemented adequate segrega-
erty, valued at $23.5 million in its                     reached on all recommendations.
                                                                                                                     tion of duties
nonexpendable property database,                         (Audit Report No. E-267-06-002-P)
was not managed in accordance                                                                                      • Periodically performed and docu-
with USAID guidance. Based on                                                                                        mented unannounced cash counts
                                                         Audit of USAID/Afghanistan’s
a statistical sample, OIG could
                                                         Cashiering Operations                                   The audit report did not contain any
not verify that a projected $21.3
                                                                                                                 recommendations.
million was correctly valued in the                      Mission cashiering operations are
database because the amounts were                        governed by policies and procedures                     (Audit Report No. 5-306-06-001-P)
not supported by documentation.                          issued by the Department of the
Additionally, OIG could not verify the                   Treasury, the Department of State,
existence of a projected $2.9 million                    and USAID. A mission cashier, among
in nonexpendable property included                       other duties, maintains an imprest
in the database. Furthermore, Mission                    fund, makes cash disbursements, and
vehicles valued at $2.3 million were                     accepts payments.
not properly safeguarded, and ques-
tions of ownership existed regarding                     OIG found that USAID/Afghanistan
nonexpendable property shared with                       managed its cashiering operations in
another U.S. Government agency.                          accordance with established regula-
                                                         tions, policies, and procedures. For
                                                         example, the Mission:


8.   Nonexpendable property is deﬁned as any item that is (1) complete in itself, (2) does not lose its identity or become a component part of another item when used,
     and (3) is of a durable nature with an anticipated useful life of over two years.


                                                                                                        SEMIANNUAL REPORT TO THE CONGRESS                          21
Audit of USAID/Afghanistan’s                In addition, OIG identiﬁed needed         employees based on past work expe-
Rebuilding Agriculture Markets              improvements in contract administra-      rience, education, and previous salary
                                            tion in areas such as the updating        history. Contractors are required
Program
                                            of work plans, changes to the scope       to certify that they have veriﬁed
USAID/Afghanistan’s Rebuilding              of work, and annual evaluations of        the information on the biographical
Agricultural Markets Program (RAMP)         contractor performance.                   data sheet submitted by prospective
was developed to help the people                                                      employees prior to submission to the
                                            OIG made three recommendations to
and Government of Afghanistan                                                         Ofﬁce of Procurement.
                                            improve USAID/Afghanistan’s adminis-
rehabilitate the country’s rural sector,    tration of the RAMP contract.             OIG found that the contractor has
focusing speciﬁcally on enhancing food                                                put policies and procedures in place
security and increasing rural incomes.      Final action was taken on all three
                                                                                      to verify information on the biograph-
                                            recommendations.
The objective of this audit was                                                       ical data sheets. Furthermore, there
to determine whether USAID/                 (Audit Report No. 5-306-06-002-P)         were no signiﬁcant discrepancies
Afghanistan’s RAMP activities were on                                                 noted on the biographical data sheet
schedule to achieve planned outputs.        Audit of the Accuracy of                  information tested during the audit.
                                            Biographical Data Sheets                  The audit report did not contain any
Five of six activities achieved their
planned outputs for the period ending
                                            Provided by International                 recommendations.
September 30, 2005, including rehabili-     Resources Group to USAID for
                                                                                      (Audit Report No. 9-267-06-001-P)
tating irrigation canals, providing live-   Contracts in Iraq
stock vaccinations and treatments, and
training women in poultry manage-           OIG conducted this audit to deter-
ment. However, USAID/Afghanistan            mine if selected information on the
did not meet its goal of rehabilitating     biographical data sheets provided to
555 kilometers of farm-to-market            USAID was accurate.
roads—about 390 kilometers or               International Resources Group has
only 70 percent were rehabilitated.         two contacts with USAID estimated
USAID/Afghanistan did not achieve           at $58 million. Biographical Data
this for a number of reasons, including     Sheets are required and used by the
the security situation and subcon-          Ofﬁce of Procurement to establish the
tractor performance issues.                 appropriate salary level for contractor




                                                    Photographs of the
                                                    Charkiar Canal’s Five-
                                                    Fingers Extension before
                                                    rehabilitation (LEFT)
                                                    and after rehabilitation
                                                    (RIGHT) in Parwan,
                                                    Afghanistan.




22      SEMIANNUAL REPORT TO THE CONGRESS
Investigation Yields $1.93 Million
Civil Settlement
As a result of an OIG investigation,
the U.S. Department of Justice, Civil
Division entered into an agreement
to settle claims against a U.S.-based
ﬁrm in connection with a contract
to build water treatment facilities in
Egypt. The U.S.-based ﬁrm supplied
materials as a subcontractor to the
prime contractor. The United States
alleged that the ﬁrm improperly
supplied non-conforming materials
that failed to meet U.S. source and
origin requirements in violation of the
terms of ﬁnancing being provided by
USAID. According to the terms of
the settlement, the ﬁrm agreed to pay
the U.S Government $1.93 million to
                                          Photograph of an OIG Special Agent inspecting a defective chopper during an
settle all claims.                        investigation in Upper Egypt.

Investigation Results in
Termination of $17 Million
Contract
An OIG investigation into improper
procurement activities by multiple
USAID contractor ﬁrms in an agricul-
tural program in Egypt has resulted
in the termination of a $17 million
contract. The investigation also
caused two contractor ﬁrms involved
in the alleged improper activity to
terminate a total of 13 employees,
including a Chief of Party and a
Deputy Chief of Party. Additionally,
the USAID Foreign Service National
Cognizant Technical Ofﬁcer in charge
of the program resigned from his
position. Finally, the prime contractor
for the project issued a credit to        Photograph of an OIG Special Agent in Egypt inspecting a tipper trailer, which
                                          turned out to be substandard and overpriced.
USAID for $467,801.




                                                                       SEMIANNUAL REPORT TO THE CONGRESS                   23
BUREAU FOR EUROPE AND EURASIA
Audit of USAID/Bulgaria’s               Investigation Results in                 performance of Moldova’s agricultural
Development Credit Authority            Termination of Three Employees           sector. The PFAP was launched in
                                                                                 January 2001 to provide post-priva-
The Development Credit Authority        The Chief of Party (COP) of a USAID      tization assistance to private farmers
(DCA) is a broad ﬁnancing authority     grantee in Serbia discovered that        and rural entrepreneurs in Moldova.
that allows USAID to use credit         his signature had been scanned and
                                                                                 During the reporting period,
to pursue any of the development        pasted on payment authorization
                                                                                 the investigation resulted in the
purposes speciﬁed under the Foreign     documents dozens of times without
                                                                                 accelerated closeout of an existing
Assistance Act of 1961, as amended.     his knowledge or permission. When
                                                                                 program resulting in a savings of
USAID’s DCA credit guarantees           questioned by the COP and other
                                                                                 $125,000. Previously, this investiga-
encourage commercial banks to           company ofﬁcials, local staff denied
                                                                                 tion had resulted in $2,000,000 in
ﬁnance targeted development projects    the charge or stated that it had been
                                                                                 savings, $119,189 in disallowed costs,
that otherwise would most likely not    done only one or two times for
                                                                                 $149,620 in suspended sub-grants, and
have been funded, encourage local       reasons of expediency. During an
                                                                                 the removal of two Chiefs of Party,
private-sector lending, and stimulate   OIG investigation of the matter, three
                                                                                 one Deputy Chief of Party and two
the development of local capital        of the grantee’s local staff admitted
                                                                                 ﬁnancial employees.
markets.                                that they routinely forged the COP’s
                                        signature on payment requests sent
This was one in a series of USAID’s
                                        to the company’s bank. Accordingly,
Development Credit Authority audits
                                        the grantee terminated the three local
conducted in ﬁscal year 2006. The
                                        employees. A comprehensive ﬁnancial
objective was to determine whether
                                        audit of the grantee is pending.
USAID/Bulgaria managed its DCA
guarantees to ensure that selected      Note: The terminations occurred
intended results were achieved.         in September of 2005 but were not
                                        previously reported.
OIG found that USAID/Bulgaria
managed its DCA guarantees to
                                        Investigation Leads to Savings of
ensure that selected results were
achieved. The loans selected for
                                        $125,000
review supported the Mission’s          OIG previously reported that an
strategic objectives, were made to      investigation launched in coordination
qualiﬁed borrowers for qualiﬁed proj-   with the USAID Missions to Moldova
ects, and funded activities reﬂecting   and Ukraine resulted in the identiﬁca-
the intended purpose of the loans.      tion of questionable practices in the
Furthermore, the Mission achieved       awarding of sub-grants by U.S.-based
its targets for the ﬁscal year ending   implementers involved in USAID’s
September 30, 2004.                     Agribusiness Development Program
                                        (ADP) and the Private Farmers
The audit report contained no recom-
                                        Assistance Program (PFAP). The ADP
mendations.
                                        seeks to increase rural incomes and
(Audit Report No. 9-183-06-002-P)       employment by improving the inter-
                                        national competitiveness and trade


24     SEMIANNUAL REPORT TO THE CONGRESS
BUREAU FOR LATIN AMERICA AND THE
CARIBBEAN
Audit of USAID/Paraguay’s                       tive health care at 25 facilities by     Audit of USAID/Guatemala’s
Reproductive Health and Family                  2005. OIG could not determine if the     Development Credit Authority
                                                planned result was achieved for the
Planning Activities
                                                fourth primary result, contraceptives    The Development Credit Authority
OIG conducted this audit to                     distributed, because the reported        (DCA) is a broad ﬁnancing authority
determine if (1) USAID/Paraguay’s               data were not reliable. In addition,     that allows USAID to use credit
reproductive health and family plan-            OIG could not determine if USAID/        to pursue any of the development
ning activities met planned results and         Paraguay and its partners managed        purposes speciﬁed under the Foreign
(2) USAID/Paraguay and its partners             these activities in an efﬁcient manner   Assistance Act of 1961, as amended.
managed these activities in an efﬁcient         because the performance indicators       USAID’s DCA credit guarantees
manner.                                         did not determine efﬁciency.             encourage commercial banks to
                                                                                         ﬁnance targeted development projects
USAID/Paraguay met two of its                   OIG made 11 recommendations
                                                                                         that otherwise might not be funded
four primary planned results. The               related to improving the quality
                                                                                         and stimulate the development of
Paraguayan Center for Population                of follow-up on reproductive and
                                                                                         local capital markets.
Studies increased its ability to cover          maternal health activities and
core operating expenses with core               improving the ability to measure the     This audit was conducted as part
operating revenues. In addition, it met         efﬁciency of program activities.         of a worldwide audit of USAID’s
its target of increasing the institutional                                               Development Credit Authority. The
                                                Management decisions were reached
capacity of 15 local health councils                                                     objective of the audit was to deter-
                                                on all recommendations.
by 2005. However, the Mission did                                                        mine whether USAID/Guatemala
not meet the third primary planned              (Audit Report No. 1-526-06-003-P)        managed its DCA guarantees to
result of providing quality reproduc-                                                    ensure that selected results were
                                                                                         achieved.

                                                                                         Except for not establishing and
                                                                                         tracking performance indicators for
                                                                                         its loan guarantees and not using a
                                                                                         bond guarantee with one organization
                                                                                         as was originally planned, USAID/
                                                                                         Guatemala managed its DCA guaran-
                                                                                         tees to ensure that selected results
                                                                                         were achieved for two of the three
                                                                                         guarantees, which totaled $25 million.

                                                                                         USAID/Guatemala did not clearly
                                                                                         establish and track performance
                                                                                         indicators for its three DCA
                                                                                         guarantees as required by USAID’s
                                                                                         DCA Operations Manual. In fact, its
                                                                                         Performance Monitoring Plan did not
         Photograph of a loan recipient and an ofﬁcial from a DCA ﬁnancial               include indicators or targets for any of
         institution. The proceeds were used by the borrower to expand her taxi          the guarantees.
         business.



                                                                                  SEMIANNUAL REPORT TO THE CONGRESS             25
USAID/Guatemala entered into a             As a result of the OIG investigation,      foundation, with continuing access
bond guarantee for the purpose of          the subcontractor pled guilty to an        to its operating account, transferred
guaranteeing the issuance of up to         embezzlement statute in U.S. District      funds to a related company after
$5 million in promissory notes which       Court. In addition, the subcontractor      the former executive began working
were going to be used to fund loans        made full restitution to USAID and         there. This unauthorized transaction
to microentrepreneurs. However,            USDA. Sentencing is scheduled for          was undertaken to conceal the fact
USAID/Guatemala has not been able          later this year.                           that the former foundation execu-
to utilize a bond guarantee with a                                                    tive was stealing money from the
non-proﬁt organization as was origi-       Investigation Leads to                     second company. After OIG notiﬁed
nally planned because of new banking       Debarment                                  the company that the funds had
regulations. The Mission must now                                                     been improperly transferred by its
decide whether to pursue or cancel         OIG previously reported that the           employee, the company repaid the
this guarantee.                            former controller of a USAID               foundation the $110,000. In addition,
                                           contractor pled guilty to the interstate   four systemic changes were imple-
OIG recommended that USAID/                transportation of stolen property. The     mented to improve internal controls
Guatemala (1) establish perfor-            former controller had stolen $58,337       and prevent a further loss of USAID
mance indicators and targets in its        from the contractor’s operational          funds.
Performance Monitoring Plan; and (2)       expense account at a U.S.-based bank
request an action plan that includes a     by causing checks to be issued payable     Investigation Leads to
timeline and steps needed to utilize its   to himself. He then took the checks
                                                                                      Termination of Director and
bond guarantee agreement.                  from the USAID contractor’s ofﬁces
                                           and deposited them in his personal
                                                                                      Technical Manager
Final action was taken on both recom-      bank account.                              A nongovernmental organization
mendations.                                                                           (NGO) dedicated to home construc-
                                           During the reporting period, the           tion and the promotion of health
(Audit Report No. 1-520-06-002-P)          former controller was sentenced in         throughout La Paz and the Andes
                                           U.S. District Court to one year of         Region of Bolivia received approxi-
Investigation Results in Guilty            probation—including six months’            mately $5 million from USAID/Bolivia
Plea and Restitution                       home detention—and 150 hours of            from 2001 to 2005. A portion of the
                                           community service. In addition, the        $5 million was earmarked for project-
An OIG investigation revealed that         matter was referred to the USAID           related travel expenses.
a subcontractor of a USAID-funded,         Ofﬁce of Acquisition and Assistance
private voluntary organization             for consideration of debarment.            An OIG investigation was initiated
created fake travel receipts and falsely   Subsequently, the former controller        based on an anonymous complaint
inﬂated travel vouchers that were          was debarred from all government           that the NGO’s Director and
subsequently submitted to USAID            programs for a period of three years.      Technical Manager routinely submitted
and the United States Department of
                                                                                      false travel vouchers as a means of
Agriculture (USDA) for reimburse-          Investigation Leads to                     augmenting their salaries. The OIG
ment. The investigation determined
                                           Repayment of $110,000                      investigation conﬁrmed the allegations
that through the submission of the
                                                                                      and both individuals were terminated.
false and inﬂated claims, the subcon-      A USAID-funded, nonproﬁt founda-
tractor received monies from USAID         tion supporting improvements in
and USDA that he was not entitled to       coffee production and the quality
receive.                                   of life of coffee workers around the
                                           world suffered a theft of $110,000.
                                           The subsequent OIG investigation
                                           found that a former executive of the



26      SEMIANNUAL REPORT TO THE CONGRESS
BUREAU FOR MANAGEMENT
Audit of USAID’s Information              Investigation Results in Two
Technology Governance Over its            Debarments
Phoenix Overseas Deployment               After an OIG investigation resulted
and Procurement System                    in the conviction, incarceration and
Improvement Program (PSIP)                debarment of the president of a U.S-
Projects                                  based Private Voluntary Organization
                                          (PVO), as previously reported,
OIG conducted this audit to
                                          the president’s spouse created a
determined whether USAID utilized
                                          new afﬁliate company. The afﬁliate
federal requirements and best
                                          company, with the spouse as president,
practices to manage and control the
                                          took over the assets and federal
Phoenix Overseas Deployment and
                                          contract previously awarded to the
Procurement System Improvement
                                          debarred PVO. Moreover, the afﬁliate
Program (PSIP) projects. USAID did
                                          company did not reveal to the govern-
not implement several key compo-
                                          ment that the spouse had direct
nents of an effective IT governance
                                          involvement in the fraudulent activities
structure—primarily because the
                                          of the debarred PVO. Accordingly,
Chief Information Ofﬁcer did not have
                                          when a new investigation exposed
the control over Agency resources to
                                          this arrangement, OIG referred the
ensure that sufﬁcient resources were
                                          matter to USAID, which debarred the
made available for these activities. As
                                          afﬁliate company and the spouse of
a result, USAID did not always use its
                                          the convicted PVO president.
IT resources responsibly and manage
its IT risk appropriately.

OIG made ﬁve recommendations to
help USAID improve its governance
over Agency information technology
initiatives.

Management decisions were reached
on all the recommendations.

(Audit Report No. A-000-06-001-P)




                                                                             SEMIANNUAL REPORT TO THE CONGRESS   27
OFFICE OF EQUAL OPPORTUNITY
PROGRAMS
Audit of USAID’s Reasonable               Management decisions were reached
Accommodation Policies and                on all recommendations, and ﬁnal
                                          action was taken on two of the
Procedures
                                          recommenations.
OIG conducted this audit to deter-
                                          (Audit Report No. 9-000-06-003-P)
mine if USAID’s reasonable accom-
modation policies and procedures
were in compliance with Executive
Order 13164 and Equal Employment
Opportunity Commission (EEOC)
guidance.
OIG found that over the past three
years, USAID’s reasonable accom-
modation policies and procedures did
not comply. Although USAID’s Ofﬁce
of Equal Opportunity Programs (EOP)
had drafted its reasonable accommo-
dation guidance and begun operating
under the new guidance, EOP had
not submitted the revisions to EEOC
for review or published the new
reasonable accommodation guidance
in a timely manner. Further, EOP had
not established a schedule to periodi-
cally review management reports on
reasonable accommodation requests
to determine if processing is occurring
within prescribed timeframes. Finally,
EOP did not update or maintain its
reasonable accommodation tracking
report on a periodic basis to accu-
rately reﬂect the status and disposi-
tion of the reasonable accommodation
requests.

OIG made ﬁve recommendations to
bring USAID’s reasonable accom-
modation policies and procedures
into compliance with Executive Order
13164 and EEOC guidance.




28      SEMIANNUAL REPORT TO THE CONGRESS
AFRICAN DEVELOPMENT FOUNDATION
The African Development Foundation           OIG STRATEGY                               Performance Monitoring
(ADF) is a public corporation and
federal agency established by the            OIG’s oversight includes ﬁnancial          ADF faces a challenge with its
United States Congress in 1980. It           and performance audits of ADF              indigenous partners that provide
began operations in 1984 and works           operations. An essential aspect of         technical support and training to ADF
at the grassroots level in Africa to alle-   this strategy lies in OIG’s annual audit   grantees, visit projects regularly to
viate poverty and promote economic           of ADF’s ﬁnancial statements. OIG          monitor progress, and assist with on-
and social development. Over the past        coordinates this audit work with non-      the-ground trouble-shooting. ADF’s
two decades, ADF has provided more           federal auditors and provides on-going     goal is to help these partners become
than $212 million in programming             technical audit advice and liaison to      ﬁnancially sustainable and widely
support to more than 1,650 projects          ADF and its auditors. In addition,         recognized as development experts in
in 27 countries.                             OIG advises the auditors and, where        their respective countries.
                                             appropriate, ADF of any deﬁciencies
ADF believes that local communities                                                     ADF has strengthened its perfor-
                                             found in the audits and presents audit
are a vital source of ideas and energy                                                  mance monitoring system by (1)
                                             recommendations to ADF through
for development. Thus, ADF makes                                                        aligning grantee project performance
                                             its annual ﬁnancial statement audit
grants directly to African enterprises                                                  indicators with ADF’s strategic plan
                                             report.
and non-governmental organizations;                                                     objectives; (2) instituting quarterly
none of its resources pass through           Performance audits also play an            monitoring and reporting on projects;
government agencies or international         important role in maintaining ADF          and (3) conducting semiannual reviews
organizations. Most of ADF’s grants          accountability and effectiveness. After    of its country project portfolios.
are between $50,000 and $250,000             initially identifying relevant manage-     These reviews provide ADF with
and are disbursed to grantees in local       ment controls, OIG performs risk           greater insight into the strengths and
currency.                                    assessments of selected ADF opera-         weaknesses of its project develop-
                                             tions. These assessments are used to       ment and approval processes.
Based in Washington, D.C., ADF has           determine where selected ADF opera-
22 employees and is governed by a            tions could be vulnerable and to assist    Implementing an Integrated
seven-member Board of Directors              in developing future audit plans.          Financial Management System
appointed by the President of the
United States. ADF receives its              MANAGEMENT                                 ADF prepares a complete set of
funding from congressional appropria-                                                   ﬁnancial statements and a private
                                             CHALLENGES
tions and obtains signiﬁcant additional                                                 accounting ﬁrm, with OIG oversight,
funding from strategic partnerships          In order to promote economy,               audits those statements. According
with African governments and from            efﬁciency, and effectiveness in the        to the audit report for ﬁscal year
other sources. Congress appropriated         administration of its programs and to      2005, ADF implemented an agree-
$23 million to ADF in ﬁscal year 2006.       prevent and detect fraud and abuse,        ment with the Department of the
Currently, ADF is supporting approxi-        ADF is working to resolve a number         Interior’s National Business Center
mately 270 projects in 16 African            of difﬁcult issues. The most important     for accounting and general ledger
countries.                                   of these issues include monitoring         services. This service addressed ﬁnan-
                                             performance of its overseas programs       cial management weaknesses that had
                                             and developing a reliable ﬁnancial         been noted in previous audit reports.
                                             management system. This section
                                             describes ADF’s continuing efforts.



30      SEMIANNUAL REPORT TO THE CONGRESS
OIG OVERSIGHT
ACTIVITIES
Audit of African Development
Foundation’s Financial
Statements for the Fiscal Year
Ended September 30, 2005
An audit of the African Development
Foundation’s ﬁnancial statements for
the ﬁscal year ended September 30,
2005, was performed, under OIG
oversight, by a non-federal audit ﬁrm.
The audit ﬁrm issued an unqualiﬁed
opinion. Additionally, the ﬁrm found
that (1) ADF had effective internal
control over ﬁnancial reporting and
compliance with laws and regula-
tions; (2) its ﬁnancial management
systems substantially complied with
the Federal Financial Management
Improvement Act of 1996; and (3)
for those items tested, ADF had no
reportable noncompliance with laws
and regulations. Furthermore, the
ﬁrm found that ADF had corrected
ﬁnancial accounting weaknesses noted
in prior audits.

(Audit Report No. 0-ADF-06-003-C)




                                         SEMIANNUAL REPORT TO THE CONGRESS   31
INTER-AMERICAN FOUNDATION
The Inter-American Foundation (IAF)       and cost-effective audit, and provides     these foundations and businesses to
is an independent federal agency          on-going technical audit advice and        foster sustainability. These partner-
established by the United States          liaison to IAF and its auditors. Also,     ships, however, present IAF with a
Congress in 1969 to support grass         OIG advises the auditor and, where         challenge—how to monitor grants
roots development in Latin America        appropriate, IAF, of any deﬁciencies       made through the partnerships. To
and the Caribbean. Since then, it has     found in the audits. OIG presents          address this challenge, IAF developed
provided funding of more than $586        audit recommendations to IAF               a system for auditing its partnerships
million in over 4,500 projects to 38      through its annual ﬁnancial statement      and introduced this new system to
countries.                                audit report.                              its ﬁeld auditors. In addition, IAF is
                                                                                     developing performance indicators
IAF provides grants to nongov-            Performance audits also play a key         and evaluation measures that will
ernmental and community-based             role in maintaining IAF accountability.    be incorporated into a Grassroots
organizations in Latin America and the    After initially identifying relevant       Development Framework for data-
Caribbean for innovative, sustainable,    management controls, OIG performs          gathering and analysis.
and participatory self-help programs.     risk assessments of selected IAF
IAF primarily funds partnerships          operations. These assessments are          IAF is also focusing greater attention
among grassroots and nonproﬁt             used to determine where selected           on developing performance indica-
organizations, businesses and local       operations could be vulnerable and to      tors to measure progress in attaining
governments directed at improving         assist in developing future audit plans.   intangible program results, such as
the quality of life of poor people and                                               democracy-building and other societal
strengthening participation, account-     MANAGEMENT                                 changes. IAF has awarded a contract
ability and democratic practices.         CHALLENGES                                 that will examine the suitability and
                                                                                     effectiveness of these performance
Based in Arlington,Virginia, IAF has 47   In order to promote economy,               indicators.
employees and is governed by a nine-      efﬁciency, and effectiveness in the
member Board of Directors appointed       administration of its programs and to      In addition, IAF is working with
by the President of the United States.    prevent and detect fraud and abuse,        migrant groups in the U.S. to assist
Its operating and program budgets         IAF is working to resolve a number of      them in channeling some of the $52
consist of congressional appropria-       difﬁcult issues. The most important        billion in annual remittances, currently
tions and funds derived through the       of these issues include monitoring         sent home to Latin America, into
Social Progress Trust Fund. Congress      performance of its overseas programs,      development activities.
appropriated $19.5 million to IAF         and developing an efﬁcient administra-
in ﬁscal year 2006. Currently, IAF        tive and organizational structure. This    Administrative and
supports 229 projects in 26 countries.    section describes IAF’s continuing         Organizational Structure
                                          efforts.
OIG STRATEGY                                                                         IAF has implemented several major
                                          Performance Monitoring                     management initiatives, including
OIG’s oversight includes ﬁnancial and                                                outsourcing several administrative
performance audits of IAF operations.     IAF has formed 23 partnerships with        functions and changing its organiza-
The ﬁrst key aspect of this strategy      corporate foundations and 170 busi-        tional structure. These initiatives have
lies in OIG’s annual audit of IAF’s       nesses throughout Latin America to         resulted in more timelier ﬁnancial
ﬁnancial statements. OIG contracts        co-fund development projects. IAF          reporting, faster procurements, and
with non-federal auditors, coordinates    uses this network to transfer its          enhanced budget management.
the work to achieve the most timely       project methodology and approach to

32      SEMIANNUAL REPORT TO THE CONGRESS
OIG OVERSIGHT
ACTIVITIES
Audit of the Inter-American
Foundation’s Financial
Statements for the Fiscal Year
Ended September 30, 2005
An audit of the Inter-American
Foundation’s ﬁnancial statements
for the ﬁscal year ended September
30, 2005 was performed, under OIG
oversight, by a non-federal audit ﬁrm.
The audit ﬁrm provided an unqualiﬁed
opinion on the ﬁnancial statements.
Moreover, the report did not contain
any ﬁndings or recommendations for
IAF management relative to noncom-
pliance or material weaknesses in
internal control.

(Audit Report No. 0-IAF-06-002-C)




                                         SEMIANNUAL REPORT TO THE CONGRESS   33
A
P
P
E
N
D
I
C
E
S
    35
    35
                           USAID FINANCIAL AUDIT REPORTS ISSUED
                             October 1, 2005 through March 31, 2006
                                                                                                           Amount of
     Report            Date of                                                                                         Type of
                                                               Report Title                                 Findings
     Number            Report                                                                                          Findings
                                                                                                            ($000s)

                                                --PROGRAMS AND OPERATIONS--

 0-000-06-001-C       11/14/05   USAID’s Financial Statements for Fiscal Years 2005 and 2004

 1-527-06-001-F       10/21/05   Audit of Certain Transactions Undertaken by Movimiento Manuela               11         QC
                                 Ramos
                                                                                                              3          UN

                                             --FOREIGN-BASED ORGANIZATIONS--

 0-000-06-015-D       02/21/06   ECI Africa Consulting (Proprietary) Limited, Report on Audit of Fiscal
                                 Years 2002 and 2003 Incurred Costs
 0-000-06-023-D       02/21/06   Valid International Ltd., Report on Audit of Pre-Award Accounting
                                 System Survey
 0-000-06-024-D       02/21/06   Center for Humanitarian Dialogue, Report on Audit of Accounting
                                 System Follow-up
 0-000-06-025-D       02/21/06   Atlas Logistique, Report on Pre-Award Accounting System Survey
 1-520-06-001-N       12/09/05   Close-Out Audit of the Fund Accountability Statement of the Project
                                 “Support to the Implementation of the Peace Accords”, Special
                                 Objective Agreement No. 520-0426, Managed by Fondo de Tierras
                                 (FONTIERRAS), for the Period from January 2002 to September 2004
 1-518-06-001-R       10/04/05   Fund Accountability Statement Audit of the Program for Strengthening
                                 the Democracy in Ecuador, Agreement No. 518-A-00-03-00054-00,
                                 Managed by the Citizen Participation Corporation, for the Year Ended
                                 December 31, 2004
 1-520-06-002-N       12/09/05   Close-Out Financial Statement Audit of Projects “Increased Rural             4          QC
                                 Household Income and Food Security” and “Implementation of the
                                 Peace Accords”, Strategic Objective Grant Agreement Nos. 520-0425.10
                                 and 520-0426, Managed by Centro de Cooperacion Internacional para la
                                 Preinversion Agricola (CIPREDA), for the Period from January 1, 2002 to
                                 September 30, 2004
 1-526-06-002-R       10/03/05   Financial Statement Audit of Programs No. 526-A-00-01-00074-00,
                                 Civil Society and No. 526-A-00-01-00100-00, Health Decentralization
                                 and Community Participation, Managed by the Fundacion Comunitaria
                                 Centro de Informacion y Recursos para el Desarrollo, for the Year
                                 Ended December 31, 2004
 1-519-06-003-N       01/26/06   Close-Out Concurrent Audit of the Fund Accountability Statement of
                                 the Special Objective “Earthquake Recovery Program (EREP)” Housing
                                 Activity, Agreement No. 519-0458, Managed by the National Popular
                                 Housing Fund (FONAVIPO), for the Period from January 1 to August 31,
                                 2005



 BU--Better Use of Funds
 QC--Questioned Costs
 UN--Unsupported Costs
 Note: UN is part of QC



36      SEMIANNUAL REPORT TO THE CONGRESS                                                                              Appendix A
                                                                                                            Amount of
     Report       Date of                                                                                                    Type of
                                                            Report Title                                     Findings
     Number       Report                                                                                                     Findings
                                                                                                             ($000s)
 1-526-06-003-R   10/04/05   Financial Statement Audit of the Program No. 526-A-00-00-00125-00,
                             Strengthening the Sustainable Management of the Chaco and Pantanal
                             Ecoregions, Managed by the Fundacion para el Desarrollo Sustenable del
                             Chaco, for the Year Ended December 31, 2004
 1-527-06-004-R   10/11/05   Audit of the Fund Accountability Statement of the Institutional                     7             QC
                             Strengthening of the Public Defender’s Ofﬁce, Letter of Understanding
                                                                                                                 3             UN
                             LA-527-0402-MOJ-01, Managed by the Ministry of Justice, for the Period
                             from November 5, 2002 to March 30, 2004
 1-519-06-004-N   02/07/06   Close-Out Audit of the Fund Accountability Statement of the Special
                             Objective Grant Agreement, Earthquake Recovery Program, Schools,
                             Micro and Small Business (Local Municipal Markets) and Health Facilities
                             Reconstruction Activities, Activity No. 519-0458, Managed by the Social
                             Investment Fund for Local Development, for the Period from January 1,
                             2005 to October 31, 2005
 1-517-06-005-R   10/11/05   Audit of the Fund Accountability Statement for Three Projects,
                             Cooperative Agreement No. 517-A-00-03-00114-00 and Donation
                             Agreement Nos. 517-G-00-04-00119-00 and 517-G-00-03-00127-00,
                             Managed by the Fundacion Institucionalidad y Justicia, Inc., for the Year
                             Ended December 31, 2004
 1-519-06-006-R   10/14/05   Financial and Compliance Audit for the Closing of the Program of
                             Infrastructure and Topography of the Project, “Technical Assistance to
                             Municipal Governments, Reconstruction Committees and Communities
                             in the Construction of Housing Process,” Agreement No. 1-519-
                             A-00-01-00149-00, Managed by the Salvadorean Foundation for
                             Reconstruction and Development, for the Period from January 1 to
                             November 30, 2004
 1-522-06-007-R   10/14/05   Audit of Financial Statements of USAID Resources Managed by
                             Asociacion de Municipios de Honduras Under Grant Agreement No.
                             522-A-00-93-00264-00, “Municipal Development” for the Period from
                             October 1, 2003 to September 30, 2004
 1-522-06-008-R   10/14/05   Closeout Financial Statement Audit of the USAID Resources Managed
                             by “Fundacion para la Educacion Ricardo Ernesto Maduro Andreu (i.e.,
                             FEREMA)” Under Grant Agreement No. CA-522-A-00-01-00304-00
                             “Proyecto Aprendamos Matematicas” for the Period Starting June 1,
                             2002 to December 31, 2004
 1-520-06-009-R   10/18/05   Fund Accountability Statement Audit of the Project Accord on
                             the Rights and Identity of Indigenous People - Human Capacity
                             Development “EDUMAYA,” USAID/G-CAP Project No. 520-A-00-98-
                             00013-00, Managed by Rafael Landivar University, for the Year Ended
                             December 31, 2004
 1-526-06-010-R   10/18/05   Financial Statement Audit of USAID/Paraguay Project “Fortalecimiento
                             Institucional del CEPEP,” Cooperative Agreement No. 526-A-00-99-
                             00008-00, Managed by the Centro Paraguayo de Estudios de Poblacion,
                             for the Year Ended December 31, 2004



                                                                                                         BU--Better Use of Funds
                                                                                                         QC--Questioned Costs
                                                                                                         UN--Unsupported Costs
                                                                                                         Note: UN is part of QC



Appendix A                                                                        SEMIANNUAL REPORT TO THE CONGRESS                 37
                                                                                                             Amount of
     Report            Date of                                                                                           Type of
                                                                Report Title                                  Findings
     Number            Report                                                                                            Findings
                                                                                                              ($000s)
 1-527-06-011-R       10/25/05   Financial Audit Report of the USAID Agreement No. 527-0368,
                                 “Environmental Management Improvement in Selected Sectors,” and
                                 Agreement No. 527-0407, “Strengthened Environmental Management
                                 to Address Priority Problems,” Managed by the National Environment
                                 Council, for the Period from January 1, 2003 to December 31, 2003
 1-527-06-012-R       10/25/05   Audit of the Fund Accountability Statement for the Activity,                   21         QC
                                 “Strengthened Environmental Management to Attend Priority
                                                                                                                7          UN
                                 Problems,” Agreement No. 527-0407, Managed by the Instituto Nacional
                                 De Recursos Naturales, for the Period July 1, 2003 to February 28, 2005
 1-526-06-013-R       10/25/05   Financial Statement Audit of the USAID/Paraguay Project “National              30         QC
                                 Environment Reform and Ecoregional Planning of the Northern Block
                                                                                                                7          UN
                                 of the Interior Atlantic Rainforest,” Agreement No. 526-A-00-03-00060-
                                 00, Managed by the Instituto de Derecho y Economia Ambiental, for the
                                 Period from October 1, 2003 to December 31, 2004
 1-518-06-014-R       10/25/05   Audit of the Fund Accountability Statement for the Activity, “Program          97         QC
                                 for Community Strengthening Initiatives in Northern Ecuador,”
                                 Cooperation Agreement No. 518-A-00-01-00010-00, Managed by the
                                 International Organization for Migration, for the Period from January 1,
                                 2004 to December 31, 2004
 1-526-06-015-R       10/27/05   Financial Statement Audit of USAID/Paraguay “Programa de Accion de
                                 Desarrollo Ambiental en Paraguay,” Under Grant Agreement No. 526-
                                 A-00-94-00008-00, Managed by the Alter Vida Association for the Nine
                                 Month Period from January 1, 2004 to September 30, 2004
 1-520-06-016-R       10/27/05   Financial Statement Audit of the Program “Better Health for Rural
                                 Women and Children,” Cooperative Agreement No. 520-98-A-00-
                                 00037-00, Managed by the Asociacion Bienestar de la Familia de
                                 Guatemala ONG for the Period from January 1, 2004 to December 31,
                                 2004
 1-517-06-017-R       10/28/05   Fund Accountability Statement Audit of Reproductive Health Service             4          QC
                                 Program, Agreement No. 517-G-00-01-00114-00, Managed by Asociacion
                                 Dominicana Pro-Bienestar de la Familia, Inc., for the Year Ended
                                 December 31, 2004
 1-527-06-018-R       10/28/05   Financial Audit of the Implementation of Electriﬁcation Activities Within      78         QC
                                 the Framework of the Special Objective Grant Agreement No. 527-
                                 0348, Managed by the Executive Directorate of Projects of the Ministry
                                 of Energy and Mines, for the Period from January 1, 2003 to February
                                 29, 2004
 1-596-06-019-R       11/10/05   Financial Audit for Strategic Objective No. 596-0184.20, “Increased            59         QC
                                 Central American Competitiveness in Global Markets,” for the Program
                                                                                                                45         UN
                                 Supporting Central America Participation in the Free Trade Areas of
                                 the Americas, Implemented and Administered by the Secretariat for the
                                 Central American Economical Integration for the Period from January 1,
                                 2004 to December 31, 2004




 BU--Better Use of Funds
 QC--Questioned Costs
 UN--Unsupported Costs
 Note: UN is part of QC



38      SEMIANNUAL REPORT TO THE CONGRESS                                                                                Appendix A
                                                                                                           Amount of
     Report       Date of                                                                                                   Type of
                                                           Report Title                                     Findings
     Number       Report                                                                                                    Findings
                                                                                                            ($000s)
 1-527-06-020-R   11/09/05   Fund Accountability Statement of the Cooperative Agreement No. EDG-                4             QC
                             A-00-02-00036-00 “Centro Andino de Excelencia Para La Capacitacion
                                                                                                                4             UN
                             de Maestros (Andean Center of Excellence for Teacher Training),”
                             Managed by Universidad Peruana Cayetano Heredia, for the Period
                             January 1, 2004 to December 31, 2004
 1-527-06-021-R   11/15/05   Financial Statement Audit of the Bilateral Grant Agreement No. 527-               42             QC
                             0391, “Addressing the Threats of Emerging and Reemerging Infectious
                                                                                                               13             UN
                             Diseases - VIGIA Project,” Managed by the National Institute of Health
                             (INS) for the Year Ended December 31, 2003
 1-522-06-022-R   11/23/05   Financial Statement Audit of the Central American and Dominican                   439            QC
                             Republic Centers of Excellence for Teacher Training Program,
                                                                                                               368            UN
                             Cooperative Agreement No. 522-A-00-02-00348-00, Managed by
                             Universidad Pedagogica Nacional Francisco Morazan, for the Year Ended
                             September 30, 2004
 1-532-06-023-R   11/21/05   Close Out Audit of the Fund Accountability Statement for the New
                             Horizons for Primary Schools Project, Agreement No. 532-0004-01,
                             Managed by the Ministry of Education,Youth, and Culture, for the Period
                             April 1, 2004 to May 31, 2005
 1-525-06-024-R   12/05/05   Audit of the Financial Statements of the Ecological Trust Fund of Panama
                             Under the Natural Resources Management Project, Agreement No.
                             525-0308, Managed by the Foundation for the Conservation of Nature
                             Resources, for the Year Ended December 31, 2003
 1-511-06-025-R   12/06/05   Fund Accountability Statement Audit of the Municipal Health Program
                             of the Yungas, Cooperative Agreement No. 511-A-00-01-00058-00,
                             Managed by SERVIR Servicios Educativos, for the Year Ended December
                             31, 2004
 1-527-06-026-R   12/20/05   Financial Statement Audit of the Asociacion Beneﬁca Prisma for the                 8             QC
                             Period Between October 1, 2002 to December 31, 2003 (for Eight
                             Activities) and the Commodity Status Report for the Same Period

 1-527-06-027-R   12/07/05   Financial Statement Audit of Strategic Objective Agreement Nos.                   232            QC
                             527-0348 and 527-0404, Managed by the National Commission for
                                                                                                               10             UN
                             Development and Life Without Drugs, for the Year Ended December 31,
                             2003
 1-527-06-028-R   12/07/05   Fund Accountability Statement Audit of the Program “Participacion y
                             Vigilancia de la Sociedad Civil en la Reforma y Desempeno del Sistema
                             de Administracion de Justicia,” Agreement No. 527-A-00-02-00221,
                             Managed by Instituto de Defensa Legal, for the Period from January 1,
                             2004 to December 31, 2004
 1-522-06-029-R   12/08/05   Audit of the Fund Accountability Statement of “Sustainable
                             Improvements in Family Health Program,” Cooperative Agreement
                             No. 522-G-00-02-00-354-00, Managed by the Asociacion Hondurena
                             de Planiﬁcacion de Familia, for the Period from October 1, 2003 to
                             September 30, 2004




                                                                                                        BU--Better Use of Funds
                                                                                                        QC--Questioned Costs
                                                                                                        UN--Unsupported Costs
                                                                                                        Note: UN is part of QC



Appendix A                                                                     SEMIANNUAL REPORT TO THE CONGRESS                   39
                                                                                                            Amount of
     Report            Date of                                                                                          Type of
                                                               Report Title                                  Findings
     Number            Report                                                                                           Findings
                                                                                                             ($000s)
 1-525-06-030-R       12/08/05   Audit of the Financial Statements of the Ecological Trust Fund of Panama
                                 Under the Natural Resources Management Project, Agreement No.
                                 525-0308, Managed by the Foundation for the Conservation of Nature
                                 Resources, for the Year Ended December 31, 2004
 1-519-06-031-R       12/12/05   Audit of the Fund Accountability Statement for the Sustainable
                                 Reproductive Health Project, Cooperative Agreement No. 519-A-00-
                                 99-000-92-00, Managed by Salvadoran Demographic Association, for the
                                 Year Ended December 31, 2004
 1-522-06-032-R       12/14/05   Financial Statement Audit of USAID Resources Managed by the
                                 Federacion de Organizaciones Privadas de Desarrollo de Honduras,
                                 Strengthening the Democratic Process in Honduras Project, Agreement
                                 No. 522-A-00-02-00350-00, for the Period from October 1, 2003 to
                                 September 30, 2004
 1-523-06-033-R       12/15/05   Financial Statement Audit of the Trust Fund Established Under
                                 Cooperative Agreement No. 523-4007-A-6001-00, Managed by the
                                 Mexican Nature Conservation Fund, A.C., for the Year Ended December
                                 31, 2004
 1-527-06-034-R       12/15/05   Audit of the Fund Accountability Statement of the Institutional               2          QC
                                 Strengthening of the Peruvian Congress, Letter of Understanding LA-
                                 527-0402-CON-01, Managed by the Congress of Peru, for the Period
                                 from December 17, 2002 to July 31, 2004
 1-519-06-035-R       12/20/05   Fund Accountability Statement Audit of the Institutional Strengthening
                                 Project, Grant Agreement No. 519-A-00-01-00219-00, Managed by the
                                 Municipal Corporation of the Republic of El Salvador, for the Year Ended
                                 December 31, 2004
 1-527-06-036-R       12/20/05   Financial Statement Audit of Reproductive Health in the Community
                                 Project - No. 527-A-00-95-00372-04; Mercomujer - GEG-A-00-01-
                                 00002-00; and Congressional Reform Coalition - 527-A-00-02-00167-00,
                                 Managed by Movimiento Manuela Ramos, for the Year Ended December
                                 31, 2004
 1-511-06-037-R       12/20/05   Fund Accountability Statement of the Population Council for Sustainable
                                 Development, Grant Agreement No. 511-0644.02, Managed by the
                                 Ministry of Sustainable Development and Planning, for the Year Ended
                                 December 31, 2003
 1-511-06-038-R       12/20/05   Fund Accountability Statement of the Population Council for Sustainable
                                 Development, Grant Agreement No. 511-0644.02, Managed by the
                                 Ministry of Sustainable Development and Planning, for the Year Ended
                                 December 31, 2004
 1-511-06-039-R       12/20/05   Fund Accountability Statement Audit of “Promoting the Full Exercise
                                 of Sexual and Reproductive Rights of Bolivian Women, Men and
                                 Adolescents” and “Family Planning and Reproductive Health Services”
                                 Programs, Cooperative Agreement Nos. 511-A-98-00158-00 and 511-
                                 A-00-04-00298-00, Managed by the Center for Research, Education and
                                 Services, for the Year Ended December 31, 2004




 BU--Better Use of Funds
 QC--Questioned Costs
 UN--Unsupported Costs
 Note: UN is part of QC



40      SEMIANNUAL REPORT TO THE CONGRESS                                                                               Appendix A
                                                                                                         Amount of
     Report       Date of                                                                                                 Type of
                                                          Report Title                                    Findings
     Number       Report                                                                                                  Findings
                                                                                                          ($000s)
 1-511-06-040-R   12/20/05   Fund Accountability Statement Audit of the Proyecto de Salud
                             Integral Chapare, Cooperative Agreement Nos. 511-0643 and 511-
                             0645, Managed by Ministerio de Asuntos Campesinos Indigenas y
                             Agropecuarios, for the Period from June 24, 2003 to December 31, 2003
 1-511-06-041-R   12/20/05   Fund Accountability Statement Audit of the Proyecto de Salud
                             Integral Chapare, Cooperative Agreement Nos. 511-0643 and 511-
                             0645, Managed by Ministerio de Asuntos Campesinos Indigenas y
                             Agropecuarios, for the Year Ended December 31, 2004
 1-532-06-042-R   12/22/05   Close Out Audit of the Fund Accountability of the Resources of USAID/            1             QC
                             GOJ HIV/AIDS Prevention and Control Project Number 532-0184,
                             Managed by the Ministry of Health, Health Promotion and Protection
                             Division, for the Period April 1, 2003 to December 31, 2004
 1-520-06-043-R   01/13/06   Audit of the Fund Accountability Statement of the PL 480 Title
                             II Program, Agreement No. FSP-00-03-00015-00, Managed by the
                             Asociacion SHARE of Guatemala, for the Period from July 1, 2003 to
                             June 30, 2004
 1-520-06-044-R   01/13/06   Audit of the Fund Accountability Statement of the PL 480 Title
                             II Program, Agreement No. FSP-00-03-00015-00, Managed by the
                             Asociacion SHARE of Guatemala, for the Period from July 1, 2004 to
                             December 31, 2004
 1-538-06-045-R   12/29/05   Fund Accountability Statement Audit of USAID Resources, Grant
                             Agreement Nos. 538-004-01, 538-005-01, 538-006-01, and 538-008-01,
                             Managed by the Caribbean Community Secretariat Under Regional
                             Strategic Objectives, for the Year Ended December 31, 2004
 1-526-06-046-R   01/05/06   Audit of the Financial Statements of the Project - Cooperation                   1             QC
                             Agreement No. 526-A-00-02-00073-00 Program of Mediation, Funded
                             by the United States Agency for International Development (USAID/
                             Paraguay) and Managed by Instituto de Estudios Comparados en
                             Ciencias Penales y Sociales, for the Period from January 1 to December
                             31, 2004
 1-519-06-047-R   01/05/06   Closeout Audit of the Fund Accountability Statement of the Healthy
                             Salvadorans Project, Grant Agreement No. 519-0430, Managed by the
                             Ministry of Public Health and Social Assistance Through the Project
                             Coordinator Unit, for the Period from January 1, 2005 to September 30,
                             2005
 1-511-06-048-R   01/10/06   Consolidated Fund Accountability Statement Audit of the Integrated               3             QC
                             Health Project, USAID Grant Agreement No. 511-0644.02, Managed by
                                                                                                              2             UN
                             the Ministry of Health and Social Welfare, for the Year Ended December
                             31, 2003
 1-511-06-049-R   01/13/06   Consolidated Fund Accountability Statement Audit of the Integrated               4             QC
                             Health Project, USAID Grant Agreement No. 511-0644.02, Managed by
                             the Ministry of Health and Social Welfare, for the Year Ended December
                             31, 2004




                                                                                                      BU--Better Use of Funds
                                                                                                      QC--Questioned Costs
                                                                                                      UN--Unsupported Costs
                                                                                                      Note: UN is part of QC



Appendix A                                                                    SEMIANNUAL REPORT TO THE CONGRESS                  41
                                                                                                            Amount of
     Report            Date of                                                                                          Type of
                                                               Report Title                                  Findings
     Number            Report                                                                                           Findings
                                                                                                             ($000s)
 1-518-06-050-R       01/23/06   Financial Statement Audit of the “Strategic Communication in the
                                 Condor Bioreserve” Project No. 518-A-00-03-00153-00, Managed
                                 by the OIKOS Corporation (Corporacion de Gestion Tecnologica y
                                 Cientiﬁca Sobre el Ambiente), for the Period from October 1, 2003 to
                                 March 31, 2005
 1-511-06-051-R       01/13/06   Financial Audit of the Endowment Fund of the Asociacion de Proteccion
                                 a la Salud (PROSALUD), Cooperative Agreement No. 511-A-00-97-
                                 00121-00. Managed by PROSALUD, for the Years Ended December 31,
                                 2003 and 2004
 1-520-06-052-R       01/13/06   Closeout Audit of the Fund Accountability Statement of the “Parque
                                 Nacional Sierra del Lacandon - PNSL” Project, Cooperative Agreement
                                 No. 520-A-00-04-00011-00, Managed by the Fundacion Defensores de
                                 la Naturaleza, for the Period from November 18, 2003 to November 30,
                                 2004
 1-519-06-053-R       01/24/06   Closeout Audit of the Fund Accountability Statement of the Sustainable
                                 Project of Reproductive Health, Agreement No. 519-A-00-99-000-92-00,
                                 Managed by the Salvadoran Demographic Association, for the Period
                                 from January 1, 2005 to June 30, 2005
 1-538-06-054-R       01/26/06   Close-out Audit of the Fund Accountability Statement of the Small
                                 and Medium Sized Enterprises Development Project No. 538-004-01,
                                 Managed by the Organization of Eastern Caribbean States, for the
                                 Period from July 1, 2003 to January 31, 2005
 1-519-06-055-R       02/08/06   Close-out Fund Accountability Statement Audit of the Institutional
                                 Strengthening Project, Grant Agreement No. 519-A-00-01-00219-00,
                                 Managed by the Municipal Corporation of the Republic of El Salvador,
                                 for the Period from January 1, 2005 to August 31, 2005
 1-511-06-056-R       02/14/06   Financial Statement Audit of the Primary Attention in Integrated Health       73         QC
                                 Program, Cooperative Agreement No. 511-A-00-98-00156-00, Managed
                                                                                                               29         UN
                                 by the Integrated Health Coordination Program, for the Year Ended
                                 December 31, 2004
 1-522-06-057-R       02/15/06   Audit of the Fund Accountability Statement of the P.L. 480 Title II
                                 Program - Monetization Funds, Community Based Health Services
                                 Project, Food Security Extension Project, and Rural Employment
                                 and Development Project, Grant Agreement No. A-00-01-00002-00,
                                 Managed by CARE International in Honduras, for the Period from
                                 October 1, 2003 to September 30, 2004
 1-525-06-058-R       02/24/06   Audit of the Financial Statements of the Ecological Trust Fund of Panama
                                 Under the Natural Resources Management Project, Agreement No.
                                 525-0308, Managed by the Foundation for the Preservation of Nature
                                 Resources, for the Year Ended December 31, 2002
 1-523-06-059-R       03/02/06   Audit of the Fund Accountability Statement for the National Enabling
                                 Environment for Mexico Program, Managed by the Mexican Nature
                                 Conservation Fund, A.C., Under USAID Cooperative Agreement
                                 No. 523-A-00-03-00049-00, for the Period from October 1, 2003 to
                                 December 31, 2004


 BU--Better Use of Funds
 QC--Questioned Costs
 UN--Unsupported Costs
 Note: UN is part of QC



42      SEMIANNUAL REPORT TO THE CONGRESS                                                                               Appendix A
                                                                                                           Amount of
     Report       Date of                                                                                                   Type of
                                                           Report Title                                     Findings
     Number       Report                                                                                                    Findings
                                                                                                            ($000s)
 1-511-06-060-R   03/02/06   Fund Accountability Statement Audit of the Projects: (1) Coverage                  3             QC
                             Expansion of Reproductive Services and Products (Santa Cruz
                                                                                                                2             UN
                             Additional Tuberculosis Activity), Agreement No. 511-G-00-95-00089-00
                             (511-0568 and 511-0644), (2) PROSALUD Institutional Consolidation,
                             Agreement No. 511-A-00-01-00262-00, (3) Social Marketing, Agreement
                             No. 511-A-00-02-00295-00, and (4) Health Partners, Agreement No.
                             511-A-00-02-0261-00, Managed by Asociacion de Proteccion a la Salud,
                             for the Year Ended December 31, 2004
 1-532-06-061-R   03/02/06   Close-Out Audit of the Fund Accountability of the Caribbean Regional
                             Program Activity Number 538-008-01, Managed by the Ministry of
                             Health, for the Period April 1, 2003 to March 31, 2005
 1-532-06-062-R   03/02/06   Close-Out Audit of the Fund Accountability Statement for the Improved
                             Citizens Security and Participation in Democratic Processes Project,
                             Agreement No. 532-008, Managed by the Ministry of Justice, for the
                             Period from March 14, 2002 to February 28, 2005
 1-523-06-063-R   03/13/06   Closeout Audit of the Fund Accountability Statement for the Wildﬁre                2             QC
                             Prevention and Environmental Restoration Program Managed by the
                             Mexican Nature Conservation Fund, A.C., Under USAID Cooperative
                             Agreement No. 523-A-00-98-00039-00, for the Year Ended December
                             31, 2004
 1-517-06-064-R   03/16/06   Closeout Audit of the Fund Accountability Statement for the Programs
                             Improving Living Conditions in the Haitian-Dominican Border
                             Agreement No. 517-A-00-03-00118-00, for the Period from July 1, 2004
                             to July 31, 2005, and for Mitigation of the Forest Fires in the High and
                             Medium Areas Located in the Dominican Republic’s Central Southwest
                             Region Agreement No. 517-G-00-05-00104-00, for the Period from
                             April 6, 2005 to July 31, 2005, Managed by Fundacion Para El Desarrollo
                             Comunitario, Inc.
 1-521-06-065-R   03/17/06   Close-Out Financial Statement Audit for USAID/Haiti’s Resources
                             Under Cooperative Agreement No. 521-A-00-02-00036-00, for the
                             Period October 1, 2004 to December 31, 2004, Managed by Fondation
                             Haitienne de L’Environnement
 1-521-06-066-R   03/15/06   Financial Statement Audit of USAID/Haiti’s Education 2004, Project No.
                             521-0259, Cooperative Agreement No. 521-A-00-99-00070-00, Managed
                             by Fondation Haitienne de L’Enseignement Prive for the Year Ended July
                             31, 2004
 4-611-06-001-N   10/12/05   Audit of the Churches Health Association of Zambia Grant Management               175            QC
                             Unit Under Cooperative Agreement No. 690-A-00-99-00265-00 for the
                                                                                                               175            UN
                             Eighteen-Month Period Ended March 31, 2002
 4-615-06-001-R   10/13/05   Audit of the Kenya Agricultural Research Institute Under USAID Award              960            QC
                             Nos. 615-0268, 615-0229 and 615-0007 for the Period November 1,
                                                                                                               679            UN
                             2000 to June 30, 2004
 4-663-06-002-R   10/20/05   Audit of Tigray Development Association Under USAID Cooperative                   23             QC
                             Agreement Nos. 663-0015-A-00-5010-00 and 663-A-00-02-00321-00
                                                                                                               23             UN
                             for the Period July 1, 2002 to June 30, 2003


                                                                                                        BU--Better Use of Funds
                                                                                                        QC--Questioned Costs
                                                                                                        UN--Unsupported Costs
                                                                                                        Note: UN is part of QC



Appendix A                                                                      SEMIANNUAL REPORT TO THE CONGRESS                  43
                                                                                                            Amount of
     Report            Date of                                                                                          Type of
                                                               Report Title                                  Findings
     Number            Report                                                                                           Findings
                                                                                                             ($000s)
 4-674-06-002-N       10/12/05   Closeout Audit of USAID/South Africa’s Resources Management by the           400         QC
                                 Career Research Information Centre Under Cooperative Agreement
                                                                                                              138         UN
                                 No. 674-A-00-02-00033-00 for the Period October 1, 2002 to March 31,
                                 2004
 4-674-06-003-N       11/16/05   Agency-Contracted Audit of USAID/South Africa’s Resources Managed            4,524       QC
                                 by the University of Kwa-Zulu Natal Under Cooperative Agreement No.
                                                                                                              512         UN
                                 HFM-A-00-02-00065-00, Grant Agreement No. AOT-G-00-97-00375-00
                                 and Subcontract No. 5907-454-HRD-4 for the Period April 1, 2002 to
                                 December 31, 2004
 4-612-06-003-R       11/10/05   Audit of the Evangelical Baptist Church of Malawi Under USAID Award           5          QC
                                 No. 690-G-00-01-00141-00 for the Period Ended April 30, 2002
 4-674-06-004-N       12/22/05   Agency-Contracted Audit of USAID/South Africa’s Resources Managed            633         QC
                                 by the Amy Biehl Foundation Trust Under Grant Agreement No. 674-G-
                                                                                                              560         UN
                                 00-01-00021-00 for the Period April 1, 2004 to March 31, 2005
 4-612-06-004-R       11/29/05   Audit of the Creative Centre for Community Mobilization under USAID           3          QC
                                 Award No. 690-A-00-00-00012-00 for the year ended March 31, 2003
 4-663-06-005-N       01/23/06   Agency-Contracted Audit of USAID/Ethiopia’s Resources Managed by             179         QC
                                 Tigray Development Association Under Cooperative Agreement No.
                                                                                                              132         UN
                                 663-A-00-02-00321-00 for the period July 1, 2003 to June 30, 2004
 4-617-06-005-R       12/14/05   Closeout Audit of Aktion Afrika Hilfe e.V Under USAID Grant                   95         QC
                                 Agreement No. 617-G-00-98-00005-00 for the Period July 1, 2000 to
                                                                                                               85         UN
                                 September 30, 2001
 4-650-06-006-N       02/16/06   Agency-Contracted Audit of USAID/REDSO/ESA’s Resources Managed                67         QC
                                 by Express Travel Group Under Contract No. 623-C-00-04-0045-00 for
                                 the Period April 20, 2004 to December 31, 2004
 4-674-06-006-R       12/14/05   Audit of South African Institute of Race Relations Under USAID               269         QC
                                 Cooperative Agreement No. 674-A-00-90-00039-00 for the Period April
                                                                                                              269         UN
                                 1, 2002 to March 31, 2003
 4-623-06-007-R       12/19/05   Audit of Inter-Governmental Authority on Development Under USAID             2,552       QC
                                 Award No. 623-0006, Project Implementation Letters 49, 51, 54, 55, 56,
                                 and 57 for the Period January 1 to December 31, 2004
 4-621-06-008-R       12/28/05   Audit of USAID Resources Managed by the United Republic of                   488         QC
                                 Tanzania’s National Bureau of Statistics under Strategic Objective Grant
                                                                                                              314         UN
                                 Agreement No. 621-000-01, Implementation Letter No. 61 for the
                                 Period November 10, 2003 to April 11, 2005
 4-663-06-009-R       12/29/05   Closeout Audit of Tigray Regional Education Bureau under USAID               266         QC
                                 Award No. 663-0015, Project Implementation Letters 26 and 28, and
                                                                                                              192         UN
                                 Award No. 663-0090, Implementation Letter 3 for the Period July 5,
                                 2001 to December 31, 2002
 4-617-06-010-R       01/10/06   Closeout Audit of the AIDS Information Centre Under USAID                    1601        QC
                                 Cooperative Agreement No. 623-0133-00-A-00-6007 for the Period July
                                 1, 2002 to December 31, 2002




 BU--Better Use of Funds
 QC--Questioned Costs
 UN--Unsupported Costs
 Note: UN is part of QC



44      SEMIANNUAL REPORT TO THE CONGRESS                                                                               Appendix A
                                                                                                           Amount of
     Report       Date of                                                                                                   Type of
                                                            Report Title                                    Findings
     Number       Report                                                                                                    Findings
                                                                                                            ($000s)
 4-623-06-011-R   02/10/06   Audit of USAID Resources Managed by the Association for                           49             QC
                             Strengthening Agricultural Research in Eastern and Central Africa Under
                                                                                                               49             UN
                             Cooperative Agreement No. 623-A-00-02-00095-00 for the Period
                             January 1 to December 31, 2004
 4-623-06-012-R   03/14/06   Audit of USAID’s Resources Managed by the African Centre for                       5             QC
                             Technology Studies, Under Cooperative Agreement Nos. 623-A-00-
                                                                                                                5             UN
                             00-0180-00, 623-A-00-04-00099-00 and Sub-Grant Agreement with
                             the Association for Strengthening Agricultural Research in Eastern and
                             Central Africa for the Period January 1, 2004 to December 31, 2004
 4-621-06-013-R   03/15/06   Audit of the Ministry of Health’s Reproductive and Child Health                   86             QC
                             Initiative, under Project No. 621-001-01, Project Implementation Letter
                                                                                                               50             UN
                             Nos. 51, 53, 54, and 58 for the Period December 1, 2001 to June 30,
                             2003
 4-674-06-014-R   03/16/06   Audit of Right to Care Under USAID Cooperative Agreement No. 674-                1,319           QC
                             A-00-02-00018-00 for the Period January 1 to December 31, 2004
                                                                                                              1,062           UN
 4-621-06-015-R   03/17/06   Audit of USAID Resources Managed by the United Republic of
                             Tanzania’s Reproductive and Child Health Initiative Project Under
                             Strategic Objective Grant Agreement No. 621-000-01, Implementation
                             Letter No. 56 for the Period February 1, 2003 to July 31, 2004
 4-656-06-016-R   03/20/06   Audit of the Forum Empresarial para o Meio Ambiente (FEMA) under                  82             QC
                             USAID Cooperative Agreement No. 656-A-00-00-00065-00 for the
                                                                                                               25             UN
                             Period March 1, 2001 to September 30, 2002
 5-386-06-001-R   10/20/05   Financial Audit of the Financial Institution’s Reform and Expansion
                             Project, USAID/India Grant Agreement No. 386-A-00-03-00175-00,
                             Managed by the National Institute of Urban Affairs, for the Period from
                             October 1, 2003 to March 31, 2004
 5-492-06-001-D   11/23/05   Financial Audit of the Program Titled “Private Sector Family and                  99             QC
                             Reproductive Health System,” USAID/Philippines Cooperative
                                                                                                               45             UN
                             Agreement No. 492-A-00-01-00020-00, Managed by FriendlyCare
                             Foundation, Inc., for the Period from January 1, 2004 to December 31,
                             2004
 5-367-06-004-R   11/02/05   Financial Audit of the Program for Enhancement of Emergency                        1             QC
                             Response, USAID/Nepal Cooperative Agreement No. 367-A-00-03-
                             00075-00, Managed by the National Society for Earthquake Technology-
                             Nepal, for the Period from October 1, 2003 to September 30, 2004
 5-386-06-005-R   12/15/05   Financial Audit of the Innovations in Family Planning Services Project,
                             USAID/India Project No. 386-0527, Managed by the State Innovations
                             in Family Planning Services Project Agency, for the Period from April 1,
                             2003 to March 31, 2004
 5-386-06-006-R   01/20/06   Financial Audit of the AVERT Project, USAID/India Project No. 386-0544,           57             QC
                             Managed by the AVERT Society, for the Period from April 1, 2003 to
                                                                                                                1             UN
                             March 31, 2004




                                                                                                        BU--Better Use of Funds
                                                                                                        QC--Questioned Costs
                                                                                                        UN--Unsupported Costs
                                                                                                        Note: UN is part of QC



Appendix A                                                                       SEMIANNUAL REPORT TO THE CONGRESS                 45
                                                                                                            Amount of
     Report            Date of                                                                                          Type of
                                                               Report Title                                  Findings
     Number            Report                                                                                           Findings
                                                                                                             ($000s)
 5-492-06-007-R       01/25/06   Financial Audit of the Contraceptive Social Marketing in the Philippines
                                 Program, USAID/Philippines Cooperative Agreement No. 492-A-00-02-
                                 00029, Managed by the DKT Philippines Inc., for the Period from January
                                 1, 2004 to December 31, 2004
 5-492-06-008-R       01/25/06   Financial Audit of the Strengthening Capacity to Identify and Reduce          5          QC
                                 the Threat of Leading Infectious Diseases Project, USAID/ Philippines
                                                                                                               5          UN
                                 Cooperative Agreement No. 492-A-00-00-00004-00, Managed by the
                                 New Tropical Medicine Foundation, Inc., (NTMFI) for the Year Ended
                                 December 31, 2003
 5-492-06-009-R       01/25/06   Financial Audit of the Strengthening Capacity to Identify and Reduce          5          QC
                                 the Threat of Leading Infectious Diseases Project, USAID/ Philippines
                                                                                                               5          UN
                                 Cooperative Agreement No. 492-A-00-00-00004-00, Managed by the
                                 New Tropical Medicine Foundation, Inc. (NTMFI), for the Year Ended
                                 December 31, 2004
 5-497-06-010-R       02/07/06   Financial Audit of the Program Titles “Public Empowerment and                 4          QC
                                 Media Monitoring for a Peaceful Election in 2004”, USAID/Indonesia
                                                                                                               1          UN
                                 Cooperative Agreement No. AID 497-A-00-03-00029-00 for the
                                 Period from January 1, 2004; Managed by the Yayasan Sains Estetika dan
                                 Teknologi (Yayasan SET)
 5-442-06-013-R       02/13/06   Financial Audit of the Institutional Development and Service Delivery
                                 Support Project, USAID/Cambodia Cooperative Agreement No. 442-
                                 A-00-99-00033-00, Managed by the Reproductive Health Association of
                                 Cambodia (RHAC), for the Period from January 1, 2004, to December
                                 31, 2004
 5-497-06-014-R       02/24/06   Closeout Audit of the Program Titled “Enhancing People’s Political            59         QC
                                 Participation to Consolidate Democracy”, USAID/Indonesia
                                                                                                               10         UN
                                 Cooperative Agreement No. 497-A-00-03-00040-00, Managed by the
                                 Lembaga Penelitian, Pendidikan dan Penerangan Ekonomi dan Sosial
                                 (LP3ES), for the Period from January 1, 2004, to September 30, 2005
 5-483-06-015-R       03/13/06   Financial Audit of the Development of Sustainable Aquaculture Project,        24         QC
                                 Cooperative Agreement No. 388-A-00-00-00068-00, Managed by the
                                                                                                               5          UN
                                 WorldFish Center for the Period from January 1, 2003, to December 31,
                                 2004
 5-442-06-016-R       03/30/06   Financial Audit of the Institutional Development/Maternal/Child Health/       62         QC
                                 Reproductive Health Project, USAID/Cambodia Cooperative Agreement
                                 No. 493-A-00-04-00005-00, Managed by the Reproductive and Child
                                 Health Alliance (RACHA), for the Period from February 19, 2004, to
                                 December 31, 2004
 5-000-06-017-R       03/30/06   Financial Audit of USAID Funds Managed by the Asian Disaster
                                 Preparedness Center (ADPC) for the Period from January 1, 2004, to
                                 December 31, 2004
 5-492-06-018-R       03/31/06   Financial Audit of the Barangay Justice Service System Project, USAID/
                                 Philippines Grant Agreement No. 492-G-0098-00044-00, Managed by
                                 the Gerry Roxas Foundation, Inc (GRF), for the Period from January 1,
                                 2004, to December 31, 2004



 BU--Better Use of Funds
 QC--Questioned Costs
 UN--Unsupported Costs
 Note: UN is part of QC



46      SEMIANNUAL REPORT TO THE CONGRESS                                                                               Appendix A
                                                                                                        Amount of
     Report       Date of                                                                                                Type of
                                                          Report Title                                   Findings
     Number       Report                                                                                                 Findings
                                                                                                         ($000s)
 6-294-06-001-N   10/25/05   Examination Procedures Related to Resources Provided to the                    12             QC
                             Palestinian Authority Through the Ministry of Finance Under the Cash
                             Transfer Grant Agreement Dated July 16, 2003, “USAID Activity Number
                             294-W-008,” for the Periods from October 1, 2004 to December 31,
                             2004 (Fourth Reporting Period), and January 1, 2005 to March 31, 2005
                             (Fifth Reporting Period)
 6-263-06-001-R   02/21/06   Financial Audit of USAID Resources Managed by the Credit Guarantee
                             Company, Related to Financing Agreement Under Strategic Objective
                             No. 16, Project Grant No. 263-0228, and Cooperative Agreement No.
                             263-A-00-03-00020-00, for the Period From January 1, 2003, Through
                             December 31, 2003
 6-263-06-002-R   02/22/06   Financial Closeout Audit of the Fund Accountability Statement of the
                             Grant Agreement No. 263-G-00-96-00073-13 Between USAID/Egypt
                             and the American Chamber of Commerce in Egypt, for the Year Ended
                             December 31, 2004
 6-294-06-003-N   12/07/05   Audit of the Certiﬁed Invoiced Costs of USAID Resources Managed
                             by Industrial Details Under Subcontract Agreement No. 5430-99SS-003
                             with Development Alternatives, Inc. Contract No. 294-C-00-99-00060-
                             00 “Market Access Program” for the Period from October 1, 2002 to
                             November 30, 2004
 6-263-06-003-R   02/23/06   Financial Audit of the Fund Accountability Statement of the State              70             QC
                             Information Service/Information, Education and Communication Center,
                                                                                                             1             UN
                             Implementation Letter No. 1, Under USAID Strategic Objective Grant
                             Agreement No. 263-0287, “Healthier, Planned Families,” Communication
                             for Healthy Living, Activity No. 263-0287.05, for the Period from
                             October 1, 2003 to September 30, 2004
 6-294-06-004-N   12/11/05   Audit of the Certiﬁed Invoiced Costs of USAID Resources Managed by
                             Massar Associates Under Subcontract Agreement No. 5430-99SS-002
                             With Development Alternatives, Inc. Contract No. 294-C-00-99-00060-
                             00 Market Access Program for the Period From October 1, 2002, to
                             June 30, 2004
 6-268-06-004-R   02/27/06   Audit of the Fund Accountability Statement of USAID Resources
                             Managed by René Moawad Foundation, Under Cooperative Agreement
                             Number 268-A-00-02-000209-00, for the Period From May 23, 2002, to
                             May 22, 2004
 6-263-06-005-R   03/02/06   Close-out Audit of USAID Resources Managed by Assuit Businessmen                1             QC
                             Association, Under Cooperative Agreement No. 263-A-00-02-00007-00,
                             for the Period From January 1, 2003, Through December 31, 2004
 6-263-06-006-N   02/26/06   Audit of USAID Deposits and Releases of Funds From the Government
                             of Egypt’s Dollar Separate Account Under the USAID/Egypt’s Sector
                             Policy Reform Programs, for the Period from July 1, 2003, to June 30,
                             2004
 6-263-06-006-R   03/05/06   Financial Audit of USAID Resources Managed by Alexandria Business
                             Association, Under Cooperative Agreement No. 263-A-00-02-00005-00,
                             for the Period from January 1, 2004 through December 31, 2004



                                                                                                     BU--Better Use of Funds
                                                                                                     QC--Questioned Costs
                                                                                                     UN--Unsupported Costs
                                                                                                     Note: UN is part of QC



Appendix A                                                                    SEMIANNUAL REPORT TO THE CONGRESS                 47
                                                                                                          Amount of
     Report            Date of                                                                                        Type of
                                                               Report Title                                Findings
     Number            Report                                                                                         Findings
                                                                                                           ($000s)
 6-263-06-007-R       03/15/06   Close-out Audit of USAID Resources Managed by Dakahlya
                                 Businessmen Association for Community Development, Under
                                 Cooperative Agreement No. 263-A-00-97-00062-00, for the Period
                                 from January 1, 2004 through December 31, 2004
 6-294-06-007-N       02/27/06   Examination Procedures Related to Resources Provided to the
                                 Palestinian Authority Through the Ministry of Finance Under the Cash
                                 Transfer Grant Agreement Dated July 16, 2003, “USAID Activity No.
                                 294-W-008” for the Period From April 1, 2005, to June 30, 2005 (Sixth
                                 Reporting Period)
 6-263-06-008-R       03/19/06   Financial Audit of USAID Resources Managed by Regional Center for           19         QC
                                 Training, Project No. 263-0287.02, Implementation Letter No. 4, Fund
                                 Accountability Statement, For the Period From January 1, 2003, Through
                                 February 28, 2005
 6-263-06-009-R       03/19/06   Financial Audit of USAID Resources Managed by Credit Guarantee
                                 Company Related to the Financing Agreement Under SO #16, Project
                                 Grant No. 263-0228 and Cooperative Agreement No. 263-A-00-03-
                                 00020, From January 1, 2004, Through December 31, 2004
 7-688-06-001-R       11/25/05   Audit of Local Currency Expenditures Incurred by the Ministry of            13         QC
                                 Agriculture under the Sustainable Economic Growth Objective Program
                                 (SEGP) No. 688-0273 in Mali for the Period May 1, 1999 through
                                 December 31, 2003
 7-641-06-001-D       11/15/05   Close-out Audit of USAID Resources Managed by the Ghana Social             2,390       QC
                                 Marketing Foundation (GSMF) under Cooperative Agreement No. 641-
                                                                                                            1,617       UN
                                 A-00-00-00079 for the Period December 1, 1999 through September
                                 30, 2004
 8-000-06-001-R       11/18/05   Audit of the German Agro Action, Germany Under USAID Grant Nos.
                                 AOT-G-00-00-00038-00, DFD-G-00-03-00008-00, and DFD-G-00-03-
                                 00039-00 for the Year Ended December 31, 2003
 8-165-06-002-R       11/30/05   Audit of the Foundation Open Society Institute Macedonia Under
                                 USAID Agreement Nos. 165-G-00-02-00113-00, 165-G-00-03-00101-00,
                                 and 165-A-00-04-00101-00 for the Year Ended December 31, 2004
 8-000-06-003-R       12/19/05   Audit of the Tuberculosis Coalition for Technical Assistance, Under        448         QC
                                 USAID Award No. HRN-A-00-00-00018-00, for the Year Ended
                                                                                                            448         UN
                                 September 30, 2001
 8-000-06-004-R       12/20/05   Audit of the Tuberculosis Coalition for Technical Assistance, Under        1,317       QC
                                 USAID Award No. HRN-A-00-00-00018-00, for the Year Ended
                                                                                                            1,308       UN
                                 September 30, 2002
 8-167-06-005-R       12/22/05   Audit of Reiinvest Institute for Development Research Under USAID
                                 Cooperative Agreement No. 167-A-00-02-00102-00 for the Period
                                 October 1, 2002 to September 30, 2004
 8-118-06-006-R       12/23/05   Audit of Siberian Civic Initiatives Support Center Under USAID
                                 Cooperative Agreement Nos. 118-A-00-03-00127, 118-A-00-04-
                                 00055/01 and 118-A-00-04-00011 for the 15-Month Period Ended
                                 December 31, 2004


 BU--Better Use of Funds
 QC--Questioned Costs
 UN--Unsupported Costs
 Note: UN is part of QC



48      SEMIANNUAL REPORT TO THE CONGRESS                                                                             Appendix A
                                                                                                       Amount of
     Report       Date of                                                                                               Type of
                                                          Report Title                                  Findings
     Number       Report                                                                                                Findings
                                                                                                        ($000s)
 8-118-06-007-R   01/04/06   Audit of the Moscow Public Science Foundation, Under USAID
                             Cooperative Agreement No. 118-A-00-02-00135-00, for the Year Ended
                             December 31, 2004
 8-118-06-008-R   01/05/06   Audit of Moscow-Helsinki Group Under USAID Cooperative                         4             QC
                             Agreement No. 118-A-00-02-00183, for the Year Ended December 31,
                             2004
 8-118-06-009-R   12/06/05   Audit of the Center for Fiscal Policy Under USAID Cooperative
                             Agreement No. 118-A-00-03-00084, for the Year Ended December 31,
                             2004
 8-118-06-010-R   01/09/06   Audit of the Institute for the Economy in Transition, Under USAID
                             Award No. 118-A-00-00-00130-00, for the Year Ended December 31,
                             2004
 8-118-06-011-R   01/10/06   Audit of the International Memorial, Under USAID Cooperative
                             Agreement No. 118-A-00-02-00178, for the Year Ended December 31,
                             2004
 8-118-06-012-R   01/09/06   Audit of ANO Internews Russia for USAID Grant Nos. 118-G-00-04-
                             00054-00 and 118-G-00-01-00084-00 for the Year Ending December 31,
                             2004
 8-183-06-013-R   02/15/06   Audit of Partners Bulgaria Foundation Under USAID Grant Award No.
                             183-A-00-00-00117-00, for the Year Ended December 31, 2003
 8-118-06-014-R   01/30/06   Audit of the Institute for Urban Economics Under USAID Cooperative
                             Agreements No. 118-A-00-01-00135 and No. 118-A-00-04-00011 for
                             the Year Ended December 31, 2004
 8-118-06-015-R   02/08/06   Audit of the Regional Society of Disabled People “PERSPEKTIVA” Under
                             USAID Cooperative Agreement No. 118-A-00-03-0085 for the Year
                             Ended December 31, 2004
 8-386-06-016-R   02/22/06   Audit of the Motivation Charitable Trust for USAID Cooperative                 2             QC
                             Agreement 386-A-00-03-00001-00, for the Period Ended December 31,
                             2004
 8-000-06-017-R   02/24/06   Audit of Foundation Hirondelle Under USAID Grants Nos. 497-G-
                             00-03-00027-00 and DOT-G-00-03-00017-00 for the Period Ended
                             December 31, 2004

                                          --LOCAL CURRENCY TRUST FUND--

 5-492-06-001-N   11/07/05   Financial Audit of USAID/Philippines’ Peso Trust Fund for Operating
                             Expenses, for the Period from January 1, 2004 to December 31, 2004
 5-391-06-003-N   01/10/06   Financial Audit of USAID/Pakistan’s Rupee Trust Fund for Operating
                             Expenses, for Fiscal Years Ended September 30, 2002, 2003, and 2004




                                                                                                    BU--Better Use of Funds
                                                                                                    QC--Questioned Costs
                                                                                                    UN--Unsupported Costs
                                                                                                    Note: UN is part of QC



Appendix A                                                                    SEMIANNUAL REPORT TO THE CONGRESS                49
                                                                                                              Amount of
     Report            Date of                                                                                            Type of
                                                                Report Title                                   Findings
     Number            Report                                                                                             Findings
                                                                                                               ($000s)

                                                  --U.S.-BASED CONTRACTORS--

 0-000-06-001-D       10/03/05   American Systems Corporation, Report on Audit of Fiscal Year 2003
                                 Incurred Costs
 0-000-06-002-D       02/21/06   Land O’ Lakes International Development Division, Report on Audit of            4          QC
                                 Fiscal Year 2003 Incurred Costs
 0-000-06-003-D       10/03/05   Advanced Engineering Associates International, Inc., Report on Audit of
                                 Fiscal Years 1998, 1999, and 2000 Incurred Costs
 0-000-06-004-D       10/11/05   Advanced Engineering Associates International, Inc., Report on Audit of
                                 Fiscal Years 2001, 2002, and 2003 Incurred Costs
 0-000-06-005-D       10/11/05   Associates for International Resources and Development, Report on
                                 Audit of Fiscal Year 2002 Incurred Costs
 0-000-06-006-D       10/11/05   PA Government Services, Inc., Report on Audit of Claimed Expenditures
                                 on Public Voucher No. 0154-33, Contract No. CCN-0002-Q-00152-00,
                                 Delivery Order No. 4
 0-000-06-007-D       03/27/06   John Snow, Inc./Report of Audit of Fiscal Year 2002 Incurred Costs
 0-000-06-008-D       03/27/06   Louis Berger Group International, Inc. Report on Audit of Fiscal Year          2,678       QC
                                 2000 Incurred Costs
 0-000-06-009-D       02/21/06   The Service Group, Inc., Report on Audit of Fiscal Year 2000 Incurred           17         QC
                                 Costs
 0-000-06-010-D       02/21/06   The Service Group, Inc., Report on Audit of Fiscal Year 2001 Incurred
                                 Costs
 0-000-06-011-D       12/19/05   Abt Associates, Inc., Report on Audit of Fiscal Year 2001 Incurred Costs        72         QC
 0-000-06-012-D       12/19/05   Financial Markets International, Inc., Report on Audit of Fiscal Year 2001
                                 Incurred Costs
 0-000-06-013-D       12/19/05   Financial Markets International, Inc., Report on Audit of Fiscal Year 2000     636         QC
                                 Incurred Costs
 0-000-06-014-D       12/19/05   Financial Markets International, Inc., Report on Audit of Fiscal Year 2002     599         QC
                                 Incurred Costs
 0-000-06-016-D       12/19/05   Casals & Associates, Report on Audit of Fiscal Years 1999 through 2001
                                 Incurred Costs
 0-000-06-017-D       02/21/06   Sibley International Corporation, Report on Audit of Fiscal Year 2000
                                 Incurred Costs
 0-000-06-018-D       12/20/05   Sibley International Corporation, Report on Audit of Fiscal Year 2001
                                 Incurred Costs
 0-000-06-019-D       12/19/05   International Resources Group Ltd., Report on Audit of Fiscal Years
                                 1998 through 2000 Incurred Costs
 0-000-06-020-D       12/19/05   Nexant, Inc., Report on Audit of Calendar Years 2000 and 2001


 BU--Better Use of Funds
 QC--Questioned Costs
 UN--Unsupported Costs
 Note: UN is part of QC



50      SEMIANNUAL REPORT TO THE CONGRESS                                                                                 Appendix A
                                                                                                           Amount of
     Report       Date of                                                                                                   Type of
                                                           Report Title                                     Findings
     Number       Report                                                                                                    Findings
                                                                                                            ($000s)
 0-000-06-021-D   12/19/05   The Louis Berger Group, Inc., Report on Audit of Fiscal Years 1992
                             through 1997 Foreign Costs Negotiation
 0-000-06-022-D   03/27/06   CH2M HILL International Services, Inc. (CHIS), Supplemental Report on             338            QC
                             Audit of Fiscal Year 2002 Incurred Costs
 0-000-06-026-D   02/21/06   Aguirre International, Report on Audit of Calendar Years 2000, 2001,
                             2002, and 2003, Incurred Costs of Contract No. FAO-I-00-99-00010-00
 5-306-06-002-D   12/19/05   Audit of Costs Incurred in the United States by the Louis Berger Group,           348            QC
                             Inc. to Implement the Rehabilitation of Economic Facilities and Services
                             Program, USAID/Afghanistan Contract No. 306-00-02-00500-00, for the
                             Period from July 1, 2004 to March 31, 2005
 5-306-06-002-N   12/08/05   Financial Audit of Local Costs Incurred by the Louis Berger Group, Inc.
                             to Implement the Rehabilitation of Economic Facilities and Services
                             Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for
                             the Period from July 1, 2005 to September 30, 2005
 5-306-06-004-N   03/21/06   Financial Audit of Local Costs Incurred by the Louis Berger Group, Inc.
                             to Implement the Rehabilitation of Economic Facilities and Services
                             Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for
                             the Period from October 1, 2005, to December 31, 2005
 6-263-06-001-D   10/13/05   Audit of Booz Allen and Hamilton, Inc. Local Costs Incurred for
                             Calendar Years 2003 and 2004, Under USAID Task Order No. PCE-I-
                             806-98-00013-00
 6-263-06-002-D   12/22/05   Audit of Planning and Learning Technologies, Inc. Local Costs Incurred
                             for Calendar Years 2002, 2003 and 2004, Under Contract No. GS-10F-
                             0311K, Task Order No. 263-M-00-02-00013-00
 6-294-06-002-N   11/21/05   Audit of the Fund Accountability Statement of USAID Resources
                             Managed by Metcalf and Eddy under Contract No. 294-C-00-99-00038-
                             00, “Coastal Aquifer Management” for the Period from February 19,
                             1999, to September 30, 2002
 6-294-06-005-N   12/11/05   Audit of the Certiﬁed Invoiced Costs of USAID Resources Managed
                             by International Technology Investment Under Subcontract Agreement
                             No. 5430-99SS-001 With Development Alternatives, Inc. Contract No.
                             294-C-00-99-00060-00 Market Access Program for the Period From
                             October 1, 2002, to September 30, 2004
 6-294-06-009-N   03/20/06   Audit of the Fund Accountability Statement of USAID Resources                     36             QC
                             Managed by Associates in Rural Development Under USAID Award No.
                             294-C-00-01-00211-00 “Emergency Services Delivery Through NGOs”
                             for the Period From October 1, 2003, to September 30, 2004
 E-267-06-001-D   10/05/05   Evaluation of Labor Timekeeping System Used by Bechtel National, Inc.
                             Under USAID Contract Nos. EEE-C-00-03-00018-00 and SPU-C-00-04-
                             00001-00 between February and July 2005




                                                                                                        BU--Better Use of Funds
                                                                                                        QC--Questioned Costs
                                                                                                        UN--Unsupported Costs
                                                                                                        Note: UN is part of QC



Appendix A                                                                     SEMIANNUAL REPORT TO THE CONGRESS                   51
                                                                                                            Amount of
     Report            Date of                                                                                          Type of
                                                                Report Title                                 Findings
     Number            Report                                                                                           Findings
                                                                                                             ($000s)
 E-267-06-002-D       02/28/06   Supplemental Report on Audit of Request for Equitable Adjustment
                                 Procedures Used by Bechtel National, Inc. for Contract Nos. EEE-C-00-
                                 03-00018-00 and SPU-C-00-04-00001-00 (Revised)
 E-267-06-005-D       02/12/06   Audit of Costs Incurred and Billed by America’s Development                  100         QC
                                 Foundation Under USAID Contract No. GEW-C-00-04-00001-00 from
                                                                                                              100         UN
                                 August 16, 2004 to June 30, 2005
 E-267-06-006-D       02/22/06   Audit of Costs Incurred by Louis Berger Group, Inc. under Contract No.        5          QC
                                 267-C-00-04-0435-00 from October 1, 2004 to July 31, 2005

                                                     --U.S.- BASED GRANTEES--

 0-000-06-001-T       03/27/06   Plan International USA, Inc. d/b/a Childreach Fiscal Year Ended June 30,
                                 2003

 0-000-06-002-T       03/27/06   Initial Review of Audit of International Rescue Committee, Inc. Fiscal
                                 Year Ending September 30, 2003

 0-000-06-003-T       03/27/06   Mercy Corps. Fiscal Year Ending June 30, 2003

 0-000-06-004-T       03/27/06   Review of Audit of Action Against Hunger – USA for FYE December 31,
                                 2003
 0-000-06-005-T       03/27/06   Review of Audit of International Fertilizer Development Center for FYE
                                 December 31, 2003
 0-000-06-006-T       03/27/06   Review of Audit of The Mountain Institute, Inc., for FYE December 31,
                                 2003
 0-000-06-007-T       03/27/06   International Foundation of Hope Fiscal Years Ending December 31,
                                 2003 and 2002
 5-388-06-002-R       10/21/05   Financial Audit of PL-480 Title II Monetized Local Currency Under
                                 USAID/Bangladesh Integrated Food for Security Program, Grant
                                 Agreement No. 388-00-94-00040-00, Managed by CARE Bangladesh, for
                                 the Period from July 1, 2002 to June 30, 2003
 5-388-06-003-R       10/24/05   Financial Audit of PL-480 Title II Monetized Local Currency Under
                                 USAID/Bangladesh Integrated Food for Security Program, Grant
                                 Agreement No. 388-G-00-94-00040-00, Managed by CARE Bangladesh,
                                 for the Period from July 1, 2003 to September 30, 2004
 5-388-06-011-R       02/07/06   Financial Audit of PL-480 Title II Monetized Local Currency under
                                 USAID/Bangladesh Food Security Enhancement Initiative (FSEI) Program,
                                 Transfer Authorization Award No. FFP-A-00-00-00070-00, Managed
                                 by World Vision Bangladesh, for the Period from October 1, 2002, to
                                 September 30, 2003
 5-388-06-012-R       02/08/06   Financial Audit of PL-480 Title II Monetized Local Currency under
                                 USAID/Bangladesh Food Security Enhancement Initiative (FSEI) Program,
                                 Transfer Authorization Award No. FFP-A-00-00-00070-00, Managed by
                                 World Vision Bangladesh (WVB), for the Period from October 1, 2003,
                                 to September 30, 2004


 BU--Better Use of Funds
 QC--Questioned Costs
 UN--Unsupported Costs
 Note: UN is part of QC



52      SEMIANNUAL REPORT TO THE CONGRESS                                                                               Appendix A
                                                                                                        Amount of
     Report       Date of                                                                                                Type of
                                                           Report Title                                  Findings
     Number       Report                                                                                                 Findings
                                                                                                         ($000s)
 6-294-06-008-N   02/28/06   Audit of the Fund Accountability Statement of USAID Resources                  71             QC
                             Managed by Save The Children Federation Under USAID Award No.
                             294- A-00-01-00115-00 “Community Psychosocial Support Program”
                             for the Period From June 1, 2002, to June 30, 2004
 E-267-06-003-D   01/24/06   Audit of Costs Incurred by International Relief and Development, Inc.          911            QC
                             Under Cooperative Agreement No. AFP-A-00-03-00002-00 from May
                                                                                                            911            UN
                             16, 2003 to July 31, 2004
 E-267-06-004-D   02/01/06   Audit of Costs Incurred by CHF International Under Cooperative                 285            QC
                             Agreement No. AFP-A-00-03-00004-00 from May 16, 2003 to July 31,
                                                                                                            276            UN
                             2004




                                                                                                     BU--Better Use of Funds
                                                                                                     QC--Questioned Costs
                                                                                                     UN--Unsupported Costs
                                                                                                     Note: UN is part of QC



Appendix A                                                                     SEMIANNUAL REPORT TO THE CONGRESS                53
                           USAID MISCELLANEOUS REPORTS ISSUED
                             October 1, 2005 through March 31, 2006
                                                                                                                Amount of
     Report                Date of                                                                                          Type of
                                                                   Report Title                                  Findings
     Number                Report                                                                                           Findings
                                                                                                                 ($000s)


                                                    --QUALITY CONTROL REVIEWS--
 0-000-06-001-Q        10/11/05      Quality Control Review of PricewaterhouseCoopers Fiscal Year 2003
                                     Audit of Save the Children Federation, Incorporated
 0-000-06-002-Q        03/15/06      Quality Control Review of Gelman, Rosenberg & Freedman Fiscal Year
                                     2002 Audit of International Center for Research on Women.
 0-000-06-003-Q        03/15/06      Quality Control Review of Gelman, Rosenberg & Freedman FY 2002
                                     Audit of Counterpart International, Inc.
 1-522-06-001-Q        10/14/05      Quality Control Review of Audit Report and Work Papers Related to
                                     Audits of the “Central American and Dominican Republic Centers of
                                     Excellence for Teacher Training,” for the Years Ended September 30,
                                     2003, and 2004, Agreement No. 522-A-00-02-00348-00, Managed by the
                                     Universidad Pedagogica Nacional Francisco Morazan
 1-519-06-002-Q        10/21/05      Quality Control Review of Audit Report and Work Papers Related to
                                     “Financial and Compliance Audit Report for the Closing of the Program
                                     of Infrastructure and Topography of the Project, Technical Assistance to
                                     Municipal Governments, Reconstruction Committees and Communities
                                     in the Construction of Housing Process,” Managed by the Salvadorian
                                     Foundation for Reconstruction and Development, Agreement No. 519-
                                     A-00-01-00149-00, from January 1 to November 30, 2004
 1-526-06-003-Q        02/27/06      Quality Control Review of the Audit Reports and Working Papers
                                     Related to the “Audit of the Project No. 526-A-00-99-00008-00
                                     Fortalecimiento Institucional del CEPEP,” Executed by Centro Paraquayo
                                     de Estudios de Poblacion for the Year Ended December 31, 2004; and
                                     “Audit of the Programs No. 526-A-00-01-00074-00 Civil Society and
                                     No. 526-A-00-01-00100-00 Health Decentralization and Community
                                     Participation,” Managed by the Fundacion Comunitaria Centro de
                                     Informacion y Recuros Para el Desarrollo for the Year Ended December
                                     31, 2004
 4-696-06-001-Q        10/12/05      Quality Control Review of the Audit of USAID Resources Managed by
                                     the Forum for African Women Educationists Under Award No. 623-
                                     G-00-04-00059-00 for the Period August 1, 2004 to January 31, 2005
                                     Performed by Deloitte & Touche (Kigali, Rwanda)
 4-612-06-002-Q        11/09/05      Quality Control Review of the Recipient-Contracted audit of the
                                     Evangelical Baptist Church of Malawi under USAID Grant Agreement
                                     No. 690-G-00-01-00141-00 for the period May 1, 2002 to May 16, 2003
                                     Performed by KPMG (Blantyre, Malawi)

 4-612-06-003-Q        11/10/05      Quality Control Review of the Recipient-Contracted Audit of Malawi
                                     Centre for Advice, Research and Education on Rights Under USAID
                                     Cooperative Agreement No. 690-A-02-00060-00 for the Period
                                     October 1, 2002 to September 30, 2003 Performed by Graham Carr
                                     (Blantyre, Malawi)

 BU--Better Use of Funds
 QC--Questioned Costs
 UN--Unsupported Costs
 Note: UN is part of QC



54      SEMIANNUAL REPORT TO THE CONGRESS                                                                                   Appendix A
                                                                                                     Amount of
     Report        Date of                                                                                            Type of
                                                           Report Title                               Findings
     Number        Report                                                                                             Findings
                                                                                                      ($000s)
 4-612-06-004-Q    11/29/05   Quality Control Review of the Recipient-Contracted Audit of the
                              National Smallholders Association of Malawi Under USAID Grant
                              Agreement No. 690-A-04-00087-00 for the Period of October 1, 2003
                              to September 30, 2004 Performed by KPMG (Lilongwe, Malawi)
 4-617-06-005-Q    12/14/05   Quality Control Review of the Recipient-Contracted Audit of Joint
                              Clinical Research Center (JCRC) under USAID Cooperative Agreement
                              No. 617-A-00-04-00003-00 for the Period December 4, 2003 to June 30,
                              2004 Performed by Sam Bisase & Co. (Kampala, Uganda)


                                                           --OTHER--
  4-674-06-001-S   02/09/06   Memorandum Report Regarding Certain USAID/South Africa Expired             131            BU
                              Obligation Documents with Unliquidated Balances

  7-669-06-001-S   03/28/06   Risk Assessment of USAID/Liberia’s Major Activities




                                                                                                  BU--Better Use of Funds
                                                                                                  QC--Questioned Costs
                                                                                                  UN--Unsupported Costs
                                                                                                  Note: UN is part of QC



Appendix A                                                                     SEMIANNUAL REPORT TO THE CONGRESS             55
                             PERFORMANCE AUDIT REPORTS ISSUED
                               October 1, 2005 through March 31, 2006
                                               USAID
                                                                                                             Amount of
     Report                Date of                                                                                       Type of
                                                                  Report Title                                Findings
     Number                Report                                                                                        Findings
                                                                                                              ($000s)

                                                    --ECONOMY AND EFFICIENCY--

 1-527-06-001-P        12/13/05      Audit of USAID/Peru’s Alternative Development Program                     252         QC
 1-520-06-002-P        01/11/06      Audit of USAID/Guatemala’s Development Credit Authority
 1-526-06-003-P        01/13/06      Audit of USAID/Paraguay’s Reproductive Health and Family Planning         311         BU
                                     Activities
 4-654-06-001-P        10/20/05      Audit of USAID/Angola’s Operating Expenses                                104         BU

 4-663-06-002-P        11/10/05      Audit of USAID/Ethiopia’s Monitoring of Awards Which Do Not
                                     Require Annual Financial Audits
 4-674-06-003-P        12/23/05      Audit of USAID/South Africa’s Control Over Prime Recipients’
                                     Monitoring of Subrecipients
 4-617-06-004-P        02/13/06      Audit of USAID/Uganda’s Development Credit Authority                      105         BU

 4-674-06-005-P        03/13/06      Audit of the Effectiveness of USAID/South Africa’s Award Closeout and     968         BU
                                     Contractor Performance Evaluation Programs

 4-674-06-006-P        03/30/06      Audit of USAID/South Africa’s Compliance with Financial Audit
                                     Requirements Regarding Foreign Recipients
 5-306-06-001-P        01/10/06      Audit of USAID/Afghanistan’s Cashiering Operations

 5-306-06-002-P        03/28/06      Audit of USAID/Afghanistan’s Rebuilding Agricultural Markets Program

 5-497-06-003-P        03/30/06      Audit of USAID/Indonesia’s Banda Aceh–Lamno Road Reconstruction
                                     Activities Under Its Tsunami Recovery and Reconstruction Program
 7-636-06-001-P        12/22/05      Audit of USAID/Sierra Leone’s Management of Its Transition Strategy

 7-624-06-002-P        01/31/06      Audit of USAID/WARP’s Management of Environmental and Food
                                     Security Monitoring Programs
 8-168-06-001-P        03/31/06      Audit of USAID/Bosnia and Herzegovina’s Physical, Environmental, and
                                     Contingency Plan Controls for Fiscal Year 2006
 9-267-06-001-P        10/06/05      Audit of the Accuracy of Biographical Datasheets Provided by
                                     International Resources Group to USAID for Contracts in Iraq
 9-183-06-002-P        10/25/05      Audit of USAID/Bulgaria’s Development Credit Authority

 9-000-06-003-P        12/13/05      Audit of USAID’s Reasonable Accommodation Policies and Procedures




 BU--Better Use of Funds
 QC--Questioned Costs
 UN--Unsupported Costs
 Note: UN is part of QC



56      SEMIANNUAL REPORT TO THE CONGRESS                                                                                Appendix A
                                                                                                       Amount of
     Report        Date of                                                                                              Type of
                                                            Report Title                                Findings
     Number        Report                                                                                               Findings
                                                                                                        ($000s)
  9-306-06-004-P   12/21/05   Audit of Funds Earmarked by Congress to Provide Assistance for             14,366           BU
                              Displaced Persons in Afghanistan
  A-000-06-001-P   02/21/06   Audit of USAID’s Information Technology Governance over Its Phoenix
                              Overseas Deployment and Procurement System Improvement Program
                              Projects
  A-000-06-002-P   03/28/06   Audit of USAID’s Progress in Implementing Recommendations from
                              Prior General and Application Controls Audits

  E-267-06-001-P   12/20/05   Audit of USAID/Iraq’s Basic Education Activities

  E-267-06-002-P   02/16/06   Audit of USAID/Iraq’s Nonexpendable Property




                                                                                                    BU--Better Use of Funds
                                                                                                    QC--Questioned Costs
                                                                                                    UN--Unsupported Costs
                                                                                                    Note: UN is part of QC



Appendix A                                                                       SEMIANNUAL REPORT TO THE CONGRESS             57
                        FINANCIAL AUDIT REPORTS ISSUED
                        October 1, 2005 through March 31, 2006
                       AFRICAN DEVELOPMENT FOUNDATION
                                                                                                   Amount of
       Report          Date of                                                                                 Type of
                                                           Report Title                             Findings
       Number          Report                                                                                  Findings
                                                                                                    ($000s)

                                              --PROGRAMS AND OPERATIONS--
 0-ADF-06-003-C        11/14/05   Audit of African Development Foundation’s Financial Statements
                                  for Fiscal Years 2005 and 2004




                              INTER-AMERICAN FOUNDATION
                                                                                                   Amount of
        Report         Date of                                                                                 Type of
                                                           Report Title                             Findings
        Number         Report                                                                                  Findings
                                                                                                    ($000s)

                                              --PROGRAMS AND OPERATIONS--
     0-IAF-06-002-C    11/14/05   Audit of the Inter-American Foundation’s Financial Statements
                                  for Fiscal Years 2005 and 2004




58        SEMIANNUAL REPORT TO THE CONGRESS                                                                    Appendix A
                    AUDIT REPORTS OVER SIX MONTHS OLD
                     WITH NO MANAGEMENT DECISION*
                             As of March 31, 2006
                                                                                    Desired
                                                             Current
      Report                                  Issue                                 Decision
                             Auditee                   Recommendation Status
      Number                                  Date                                   Target
                                                                                      Date




                                       NOTHING TO REPORT




*Applies to USAID, ADF, and IAF.




Appendix B                                             SEMIANNUAL REPORT TO THE CONGRESS       59
                    SIGNIFICANT AUDIT RECOMMENDATIONS
                     DESCRIBED IN PREVIOUS SEMIANNUAL
                       REPORTS WITHOUT FINAL ACTION
                              As of March 31, 2006
                                                         USAID
                                                                                                          Final Action
     Report                                                              Issue     Rec.   Management
                                   Subject of Report                                                         Target
     Number                                                              Date      No.    Decision Date
                                                                                                              Date
 9-000-02-005-P   USAID’s Staff Training and Development Activities     07/11/02    1       07/11/02         09/06
                                                                                    2       07/11/02         09/06
                                                                                    3       07/11/02         09/06
 0-000-03-001-C   Report on USAID’s Consolidated Financial              01/24/03   2.2      01/24/03         09/06
                  Statements Internal Controls and Compliance for
                  Fiscal Year 2002
 1-598-05-001-P   Regionalization Efforts in Latin America and the      11/09/04    5       11/09/04         09/06
                  Caribbean
 1-598-05-002-P   USAID’s Bureau for Management, Ofﬁce of               12/03/04    1       12/03/04         05/06
                  Acquisition and Assistance’s Administration of
                                                                                    5       12/03/04         09/06
                  Audits Required Under Awards to Foreign and U.S.
                  Recipients
 9-000-05-001-P   Field Support Mechanisms in the Global Health         12/07/04    3       12/07/04         06/06
                  Bureau
 A-267-05-005-P   USAID’s Compliance with Federal Regulations in        01/06/05    4       01/06/05         04/06
                  Awarding the Contract for Security Services in Iraq
                  to Kroll Government Services International, Inc.
 A-000-05-006-P   USAID’s Information Technology Infrastructure         02/22/05    1       02/22/05         06/06
                                                                                    7       02/22/05         06/06
                                                                                    8       02/22/05         06/06
                                                                                    9       02/22/05         06/06
 E-267-05-003-P   USAID/Iraq’s Electrical Power Sector Activities       06/29/05    1       06/29/05         06/06

 9-000-05-001-S   Memorandum Regarding the Calculation and              07/21/05    1       07/21/05         04/06
                  Collection of U.S. Treasury Interest on the
                                                                                    2       07/21/05         04/06
                  Development Credit Authority Guarantee Financing
                  Account
 9-615-05-007-P   USAID/Kenya’s Implementation of the President’s       07/21/05    1       07/21/05         07/06
                  Emergency Plan for AIDS Relief
                                                                                    2       07/21/05         07/06
                                                                                    3       07/21/05         07/06
                                                                                    4       07/21/05         07/06
                                                                                    5       07/21/05         07/06




60     SEMIANNUAL REPORT TO THE CONGRESS                                                                     Appendix C
                                                                                                       Final Action
     Report                                                           Issue     Rec.   Management
                                   Subject of Report                                                      Target
     Number                                                           Date      No.    Decision Date
                                                                                                           Date
  1-521-05-010-P   USAID/Haiti’s Implementation of the President’s   07/29/05    1        07/29/05        04/06
                   Emergency Plan for HIV/AIDS Relief
                                                                                 2        07/29/05        04/06
                                                                                 3        07/29/05        04/06
                                                                                 4        07/29/05        04/06
                                                                                 5        07/29/05        04/06
                                                                                 6        07/29/05        04/06
                                                                                 7        07/29/05        04/06




Appendix C                                                                SEMIANNUAL REPORT TO THE CONGRESS       61
                    SIGNIFICANT AUDIT RECOMMENDATIONS
                     DESCRIBED IN PREVIOUS SEMIANNUAL
                       REPORTS WITHOUT FINAL ACTION
                              As of March 31, 2006
                      AFRICAN DEVELOPMENT FOUNDATION
                                                                                                         Final Action
     Report                                                            Issue     Rec.    Management
                                  Subject of Report                                                         Target
     Number                                                            Date      No.     Decision Date
                                                                                                             Date
 9-ADF-03-005-P   Audit of Awarding and Monitoring of Grants by the   02/28/03    1        02/28/03         05/06
                  African Development Foundation
                                                                                  2        02/28/03         08/06
                                                                                  3        02/28/03         05/06
                                                                                  5        02/28/03         05/06
 9-ADF-05-008-P   African Development Foundation’s Monitoring,        08/17/05    1        08/17/05         05/06
                  Reporting and Evaluation System
                                                                                  2        08/17/05         05/06
                                                                                  3        08/17/05         12/06
                                                                                  4        08/17/05         05/06
                                                                                  5        08/17/05         05/06
                                                                                  6        08/17/05         05/06
                                                                                 10        08/17/05         05/06
                                                                                 11        08/17/05         05/06
                                                                                 12        08/17/05         05/06
                                                                                 13        08/17/05         05/06
                                                                                 14        08/17/05         10/06




                             INTER-AMERICAN FOUNDATION
                                                                                                         Final Action
     Report                                                             Issue     Rec.   Management
                                  Subject of Report                                                         Target
     Number                                                             Date      No.    Decision Date
                                                                                                             Date



                                             NOTHING TO REPORT




62     SEMIANNUAL REPORT TO THE CONGRESS                                                                    Appendix C
                              REPORTS ISSUED WITH QUESTIONED
                                  AND UNSUPPORTED COSTS
                               October 1, 2005 through March 31, 2006
                                                                 USAID
                                                                                Number
                                                                                                     Questions              Unsupported
                                 Reports                                        of Audit
                                                                                                      Costs                    Costs1
                                                                                Reports

   A. For which no management decision had been made as of
                                                                                    39             $23,689,9172,3           $19,001,4892,3
      October 1, 2005

   B. Add: Reports issued October 1, 2005 through March 31,
                                                                                    77             $25,851,1774               $9,786,7564
      2006

       Subtotal                                                                    116              $49,541,094              $28,788,245

   C. Less: Reports with a management decision made October
                                                                                    785            $35,933,6866              $22,755,8116
      1, 2005 through March 31, 2006

       i.    Value of Recommendations Disallowed by Agency
                                                                                                    $22,495,223              $14,887,986
             Ofﬁcials

       ii. Value of Recommendations Allowed by Agency Ofﬁcials                                      $13,438,463               $7,867,825

   D. For which no management decision had been made as of
                                                                                    48             $13,607,4087               $6,032,4347
      March 31, 2006




1. Unsupported Costs are included in Questioned Costs, but are provided as additional information as required by the Inspector General Act
   Amendments of 1988 (P.L. 100-504).

2. The ending balance at September 30, 2005, for Questioned Costs totaling $23,713,840 was decreased by $23,923 to reﬂect adjustments in prior
   period recommendations; the ending balance at the same period for Unsupported Costs of $19,003,742 was decreased by $2,253 to also reﬂect
   adjustments in prior period recommendations.

3. Amounts include $15,874,791 in Questioned Costs and $12,995,604 in Unsupported Costs for audits performed for OIG by other federal audit
   agencies.

4. Amounts include $8,481,549 in Questioned Costs and $3,238,547 in Unsupported Costs for audits performed for OIG by other federal audit
   agencies

5. Unlike the monetary ﬁgures of this row, this ﬁgure is not being subtracted from the subtotal. Some audit reports counted here are again counted
   in the ﬁgure below it.

6. Amounts include $16,301,609 in Questioned Costs and $13,330,379 in Unsupported Costs for audits performed for OIG by other federal audit
   agencies.

7. Amounts include $8,382,296 in Questioned Costs and $3,193,403 in Unsupported Costs for audits performed for OIG by other federal audit
   agencies.




Appendix D                                                                                 SEMIANNUAL REPORT TO THE CONGRESS                   63
                       REPORTS ISSUED WITH RECOMMENDATIONS
                          THAT FUNDS BE PUT TO BETTER USE
                          October 1, 2005 through March 31, 2006
                                                            USAID
                                                                                Number
                                          Reports                               of Audit   Dollar Value
                                                                                Reports

     A. For which no management decision had been made as of October 1, 2005       1        $263,775

     B. Add: Reports issued October 1, 2005 through March 31, 2006                 6       $15,986,019

        Subtotal                                                                   7       $16,249,794

     C. Less: Reports with a management decision made October 1, 2005 through      7       $16,249,794
        March 31, 2006

         i.    Value of Recommendations Agreed to by Agency Ofﬁcials                       $16,160,103

         ii. Value of Recommendations Not Agreed to by Agency Ofﬁcials                       $89,691

     D. For which no management decision had been made as of March 31, 2006        0           $0




64            SEMIANNUAL REPORT TO THE CONGRESS                                                     Appendix E
                              REPORTING REQUIREMENTS
                                             USAID
Summary of Instances              Signiﬁcant Management                   year activities planned and
in Which Information or           Decisions with Which                    underway that will allow an
Assistance Was Refused            the Inspector General                   agency to achieve substantial
                                                                          compliance with FFMIA.
The Inspector General Act         Disagrees
of 1978 (Public Law 95-452),                                              As part of USAID’s remedia-
                                  The Inspector General Act
as amended, requires the                                                  tion plan, which is included
                                  requires that each Inspector
identiﬁcation of any reports                                              in its Performance and
                                  General’s Semiannual Report
made to the head of the agency                                            Accountability Report, the
                                  to the U.S. Congress include
describing where information or                                           Agency deployed the Phoenix
                                  information concerning
assistance was refused or not                                             ﬁnancial system to missions
                                  any signiﬁcant management
provided. During this reporting                                           located in the Asia and Near
                                  decisions with which OIG is
period, there were no reports                                             East and Africa regions. Full
                                  in disagreement. During this
to the Administrator of USAID                                             overseas deployment is
                                  reporting period, there were
describing instances where                                                scheduled to be completed
                                  no management decisions with
information or assistance was                                             in May 2006, and at that
                                  which OIG disagreed.
refused or not provided.                                                  time, USAID ofﬁcials expect
                                                                          its ﬁnancial system to be
                                  Remediation Plan                        substantially compliant with
Decisions and Reasons
                                  The Inspector General Act               FFMIA.
for Signiﬁcant Revised
                                  requires OIGs to provide an
Management Decisions              update on issues outstanding
The Inspector General Act         under a remediation plan
requires that each Inspector      required by the Federal
General’s Semiannual Report       Financial Management
to the U.S. Congress include      Improvement Act of 1996
a description and explanation     (FFMIA). FFMIA requires
of signiﬁcant revisions of        agencies to substantially
management decisions. During      comply with (1) federal
this reporting period, there      ﬁnancial management system
were no signiﬁcant revisions of   requirements, (2) Federal
management decisions.             Accounting Standards, and
                                  (3) the U.S. Standard General
                                  Ledger at the transaction
                                  level. According to Ofﬁce
                                  of Management and Budget
                                  Circular No. A-11, an agency
                                  that is not substantially
                                  compliant with FFMIA must
                                  prepare a remediation plan.
                                  The purpose of the remedia-
                                  tion plan is to identify ﬁscal



Appendix F                                                         SEMIANNUAL REPORT TO THE CONGRESS      65
                               OIG STATISTICAL SUMMARY
                                              USAID
                                       As of March 31, 2006
                                 INVESTIGATIVE ACTIONS

     WORKLOAD                                      CIVIL
     CASES OPENED                           46     CIVIL REFERRALS                     3
     CASES CLOSED                           40     COMPLAINTS                          0
                                                   JUDGEMENTS/RECOVERIES               2
                                                   SETTLEMENTS                         2

     CRIMINAL                                      ADMINISTRATIVE
     PROSECUTIVE REFERRALS                  5      REPRIMANDS/DEMOTIONS                0
     PROSECUTIVE DECLINATIONS               6      PERSONNEL SUSPENSIONS               0
     INDICTMENTS                            1      RESIGNATIONS/TERMINATIONS          20
     CONVICTIONS                            2      OTHER ADMINISTRATIVE ACTIONS        0
     FINES                                  0      RECOVERIES                          3
     RESTITUTIONS                           1      SUSPENSIONS/DEBARMENTS              3
                                                   SAVINGS                             2
                                                   SYSTEMIC CHANGES                    4




                              INVESTIGATIVE RECOVERIES
                JUDICIAL RECOVERIES                                    $4,443,067
                ADMINISTRATIVE RECOVERIES                               $966,063
                SAVINGS                                               $17,308,235
                TOTAL INVESTIGATIVE SAVINGS/ RECOVERIES              $22,717,365




66      SEMIANNUAL REPORT TO THE CONGRESS                                           Appendix G
          U.S. Agency for International Development
                  Ofﬁce of Inspector General
                  1300 Pennsylvania Avenue, NW
                          Room 6.06D
                     Washington, DC 20523
                      www.usaid.gov/oig




The Semiannual Report to the Congress is available on the Internet at
        www.usaid.gov/oig/public/semiann/semiannual1.htm
